No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
MALIK NASIR
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ELIZABETH B. PRELOGAR
Acting Solicitor General
NICHOLAS L. MCQUAID
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
JOHN M. PELLETTIERI
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether a court of appeals may, on plain-error review, affirm a conviction following a trial for possessing
a firearm as a felon, in violation of 18 U.S.C. 922(g)(1)
and 924(a)(2), on the ground that the entire record
demonstrates that the defendant was not prejudiced by
the application of later-overruled circuit precedent under which the government was not required to charge
or prove knowledge of felon status.

(I)

RELATED PROCEEDINGS

United States District Court (D. Del.):
United States v. Nasir, No. 16-cr-15 (Aug. 27, 2018)
United States Court of Appeals (3d Cir.):
United States v. Nasir, No. 18-2888 (Dec. 1, 2020)

(II)

TABLE OF CONTENTS

Page
Opinion below ................................................................................ 1
Jurisdiction .................................................................................... 1
Statutory provisions and rule involved....................................... 1
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 7
Conclusion ..................................................................................... 8
Appendix A — Court of appeals opinion (Dec. 1, 2020) ........ 1a
Appendix B — Court of appeals order (Mar. 4, 2020) ...... 112a
Appendix C — Statutory provisions and rule.................... 114a
TABLE OF AUTHORITIES

Cases:
Rehaif v. United States, 139 S. Ct. 2191 (2019) ................ 4, 8
United States v. Olano, 507 U.S. 725 (1993) ......................... 5
Statutes, guidelines, and rule:
18 U.S.C. 922(g) ......................................................... 4, 7, 114a
18 U.S.C. 922(g)(1) ..............................................2, 3, 4, 5, 114a
18 U.S.C. 924(a) ....................................................................... 7
18 U.S.C. 924(a)(2) ..............................................2, 3, 4, 5, 115a
21 U.S.C. 841(a)(1) ................................................................... 2
21 U.S.C. 841(b)(1)(D) ......................................................... 2, 3
21 U.S.C. 856(a)(1) ................................................................... 2
United States Sentencing Guidelines:
§ 4B1.1 ............................................................................ 4, 7
§ 4B1.1(b) ........................................................................... 7
§ 4B1.2(b) ........................................................................... 4
Fed. R. Crim. P. 52(b) ................................................... 5, 116a

(III)

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
MALIK NASIR
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the United
States of America, respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit in this case.
OPINION BELOW

The opinion of the court of appeals (App., infra, 1a111a) is reported at 982 F.3d 144.
JURISDICTION

The judgment of the court of appeals was entered on
December 1, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS AND RULE INVOLVED

The pertinent statutory provisions and rule are reproduced in the appendix to this brief. App., infra,
114a-116a.

(1)

2
STATEMENT

Following a jury trial in the United States District
Court for the District of Delaware, respondent was convicted of maintaining a premise for purposes of distributing a controlled substance, in violation of 21 U.S.C.
856(a)(1); possessing marijuana with the intent to distribute, in violation of 21 U.S.C. 841(a)(1) and (b)(1)(D);
and possessing a firearm following a felony conviction,
in violation of 18 U.S.C. 922(g)(1) and 924(a)(2). App.,
infra, 4a. The court sentenced respondent to 210 months
of imprisonment, to be followed by three years of supervised release. Id. at 5a. The court of appeals vacated
respondent’s firearm conviction under 18 U.S.C.
922(g)(1) and 924(a)(2) and remanded for retrial on that
count. App., infra, 6a-7a. The court affirmed the drug
convictions but remanded for resentencing on those
counts because it concluded that the district court had
erroneously calculated respondent’s advisory Sentencing Guidelines range. Ibid.
1. Respondent rented a unit at a storage facility that
he used to store drugs and drug-distribution paraphernalia. App., infra, 3a. Based on a report that respondent was engaging in suspicious activity at the facility, as
well as other evidence, police obtained warrants to
search the facility and respondent’s home. Ibid. During the searches, police found three kilograms of marijuana, a scale, packing material, a paper bag containing
$5000 in cash, and five firearms. Id. at 4a.
A federal grand jury returned an indictment charging respondent with maintaining a premise for purposes
of distributing a controlled substance, in violation of
21 U.S.C. 856(a)(1) (Count 1); possessing marijuana
with the intent to distribute, in violation of 21 U.S.C.

3
841(a)(1) and (b)(1)(D) (Count 2); and possessing a firearm following a felony conviction, in violation of 18 U.S.C.
922(g)(1) and 924(a)(2) (Count 3). App., infra, 4a. As
relevant here, the firearm count alleged that respondent “did knowingly possess in and affecting interstate
and foreign commerce, firearms, to wit, [the five firearms seized from respondent], after having been convicted of a crime punishable by imprisonment for a term
exceeding one year, in the United States District Court
for the Eastern District of Virginia.” C.A. App. 40-41.
2. Respondent proceeded to trial, where he stipulated that “[p]rior to December 21, 2015, * * * [he] was
convicted of a felony crime punishable by imprisonment
for a term exceeding one year, in the United States District Court for the Eastern District of Virginia.” App.,
infra, 5a n.3.
The district court instructed the jury that in order to
find respondent guilty of the firearm charge under
18 U.S.C. 922(g)(1) and 924(a)(2), it had to find that the
government had proved three elements beyond a reasonable doubt: “First, that the defendant has been convicted of a felony, that is, a crime punishable by imprisonment for a term exceeding one year; [s]econd, that after this conviction, the defendant knowingly possessed
the firearm described in Count Three of the Indictment;
and [t]hird, that the defendant’s possession was in or
affecting interstate or foreign commerce.” C.A. App.
616. Consistent with then-governing circuit precedent,
the court did not instruct the jury that it had to find that
respondent knew that he had been previously convicted
of a crime punishable by imprisonment for more than
one year. Id. at 620-623; see App., infra, 25a-27a.
The jury found respondent guilty on all three counts.
App., infra, 4a. Before sentencing, the Probation Office

4
prepared a presentence report reflecting, as relevant
here, that respondent previously had been convicted of
multiple felony offenses and had served nearly a decade
in prison. Presentence Investigation Report (PSR)
¶¶ 44-91. The Probation Office reported, among other
things, that respondent had previously pleaded guilty in
the United States District Court for the Eastern District of Virginia to possessing a firearm as a felon, in
violation of 18 U.S.C. 922(g)(1) and 924(a)(2); had been
sentenced to 84 months of imprisonment for that offense; and had been federally incarcerated for that
crime for more than four years. PSR ¶¶ 67-71. The
Probation Office also reported that respondent had two
Virginia convictions for possession of cocaine with the
intent to distribute it and attempted possession of cocaine with the intent to distribute it, and that he had
served more than a year in prison for each of those offenses. PSR ¶¶ 52, 61.
At sentencing, the district court determined that respondent qualified as a career offender under Sentencing Guidelines § 4B1.1—increasing his advisory Sentencing Guidelines range—because, among other
things, his two Virginia drug convictions qualified as
“controlled substance offense[s]” as defined in Sentencing Guidelines § 4B1.2(b). App., infra, 16a. The district
court sentenced respondent to 210 months of imprisonment, to be followed by three years of supervised release. Id. at 5a.
3. a. While respondent’s appeal was pending, this
Court held in Rehaif v. United States, 139 S. Ct. 2191
(2019), that in a Section 922(g) prosecution, the government must prove both “that the defendant knew he possessed a firearm and also that he knew he had the relevant status when he possessed it,” id. at 2194. In his

5
appellate proceedings, respondent argued, for the first
time, that his Section 922(g)(1) conviction was invalid
because the indictment did not allege, the jury had not
been required to find, and the government had not introduced sufficient evidence at trial to prove that he
knew his felon status at the time he possessed the firearms at issue here. See App., infra, 4a, 28a n.15. The
court of appeals sua sponte ordered the case to be heard
en banc. Id. at 112a-113a.
The en banc court of appeals affirmed respondent’s
drug convictions but vacated his conviction under
18 U.S.C. 922(g)(1) and 924(a)(2) and remanded for retrial on that count. App., infra, 6a-7a. At the outset,
the court recognized that because respondent had not
challenged the indictment, jury instructions, or sufficiency of the evidence on the Section 922(g)(1) count in
the district court, he would need to satisfy the plainerror standard in order to secure appellate relief. Id. at
24a, 28a n.15; see Fed. R. Crim. P. 52(b). The court of
appeals explained that to prevail on plain-error review,
respondent must “prove that there was (1) an actual error (2) that is plain or obvious, (3) that affected ‘the outcome of the district court proceedings,’ and (4) that ‘seriously affect[ed] the fairness, integrity or public reputation of judicial proceedings.’ ” App., infra, 25a (quoting United States v. Olano, 507 U.S. 725, 734-736 (1993)
(brackets in original)). And although the court saw “no
merit at all” to respondent’s challenge to the indictment, it saw “some merit” in respondent’s challenge to
the jury instructions and was “persuaded by” respondent’s argument “that the government did not present
sufficient evidence of knowledge-of-status.” Id. at 28a
n.15.

6
Because the government had not disputed that the
first two requirements of the plain-error test were satisfied, the court of appeals focused on the two casespecific requirements—whether the error had affected
respondent’s substantial rights, and whether leaving it
uncorrected would affect the integrity of judicial proceedings. App., infra, 25a. Acknowledging that it was
deviating from the approach of other courts of appeals,
the court held that in evaluating whether the error affected respondent’s substantial rights and undermined
the fairness, integrity, or public reputation of judicial
proceedings, the court was limited to considering the
record at respondent’s trial and precluded from taking
account of other record evidence. Id. at 27a-44a; see id.
at 66a-87a (Matey, J., concurring).
Having limited its review to the trial record, the
court of appeals concluded that respondent had satisfied the third and fourth prongs of the plain-error
standard. App., infra, 45a-58a. The court concluded
that the error affected the outcome of the trial, on the
view that the government had failed to present proof at
trial to establish an essential element of the offense. Id.
at 45a-53a. And the court deemed the error to seriously
affect the fairness, integrity, or public reputation of judicial proceedings on the view that it “deprived [respondent] of the right to have a jury consider whether
the government had proven him guilty beyond a reasonable doubt on every element of the § 922(g) charge.” Id.
at 54a-55a; see id. at 53a-57a. The court, however, determined that a retrial on the Section 922(g)(1) charge,
rather than outright acquittal, was “allowed and warranted” because the government failed to present sufficient evidence due to “a misapprehension about the

7
law—one shared by everyone in the courtroom, and perhaps across the nation, until Rehaif.” Id. at 57a-58a.
The court of appeals also vacated respondent’s sentence on the remaining drug counts and remanded for
resentencing, concluding that the district court had sentenced respondent erroneously as a career offender under Guidelines § 4B1.1. App., infra, 15a-23a. In the
court’s view, the Sentencing Commission’s explanation
of the definition of “controlled substance offense” in the
application note to Sentencing Guidelines § 4B1.1(b)—
which states that the term “controlled substance offense” includes attempt and other inchoate offenses—is
invalid, and thus respondent’s Virginia conviction for attempted possession of cocaine with the intent to distribute does not qualify. Id. at 17a-23a.
b. As relevant here, seven judges dissented from the
court of appeals’ reversal of respondent’s conviction under 18 U.S.C. 922(g) and 924(a). App., infra, 88a-111a
(Porter, J., dissenting). They would have held that
plain-error review permitted consideration of the entire
record, not just evidence introduced at trial. Id. at 94a108a. And they would have found that respondent failed
to establish reversible plain error because the record
showed that respondent knew of his status as a felon
and would be unable to challenge that element at a retrial, making a remand for retrial pointless. Id. at 108a110a.
REASONS FOR GRANTING THE PETITION

On January 8, 2021, this Court granted the petition for
a writ of certiorari in Greer v. United States, No. 19-8709
(argued Apr. 20, 2021), to decide whether an appellate
court may consider materials not presented to the
jury—such as information in a presentence report—in

8
assessing whether to grant plain-error relief to a defendant who was convicted of possessing a firearm following a felony conviction based on an indictment and
trial that did not accurately reflect the knowledge-ofstatus requirement announced by this Court in Rehaif v.
United States, 139 S. Ct. 2191 (2019). Because this
Court’s decision in Greer may affect the proper disposition of this case, the petition for a writ of certiorari in this
case should be held pending the Court’s decision in
Greer, and then disposed of as appropriate in light of that
decision.
CONCLUSION

The petition for a writ of certiorari should be held
pending this Court’s decision in Greer v. United States,
No. 19-8709 (argued Apr. 20, 2021), and then disposed
of as appropriate in light of that decision.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
NICHOLAS L. MCQUAID
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
JOHN M. PELLETTIERI
Attorney

APRIL 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2888
UNITED STATES OF AMERICA
v.
MALIK NASIR, APPELLANT
Argued before Merits Panel: Nov. 12, 2019
Argued En Banc: June 24, 2020
Filed: Dec. 1, 2020
On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-16-cr-00015-001)
District Judge: Hon. Leonard P. Stark
Before: SMITH, Chief Judge, MCKEE, AMBRO, CHAJORDAN, HARDIMAN, GREENAWAY, JR.,
GARES,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER, MATEY,
PHIPPS, SCIRICA, * and RENDELL,* Circuit Judges.

Judges Scirica and Rendell have elected to participate as a member of the en banc court pursuant to Third Cir. I.O.P. 9.6.4.
*

(1a)

2a
OPINION OF THE COURT **
JORDAN, Circuit Judge:
On a tip, Malik Nasir was arrested near a storage
unit in which he kept the marijuana he was selling. He
was subsequently charged with, and convicted of, two
drug offenses and a firearm offense. At sentencing,
the District Court applied a career offender enhancement. Nasir now appeals his convictions and challenges the application of that enhancement. We will affirm Nasir’s convictions in part but, in light of the Supreme Court’s decision in Rehaif v. United States, 139
S. Ct. 2191 (2019), we will vacate his conviction as a felon
in possession of a firearm and remand for a new trial on
that charge, as well as for resentencing on the remaining
counts of conviction.

The opinions of Judges McKee, Ambro, Jordan, Greenaway, Jr.,
Krause, Restrepo, Matey, Sciricia, and Rendell are reflected in this
Majority Opinion in Sections I, II.D., and II.E., as well as in the Conclusion in Section III of the Opinion, to the extent the Conclusion
addresses subjects considered in Sections II.D and II.E. Judge Bibas has written a concurring opinion as to Section II.D., and Judge
Matey has written a concurring opinion as to Section II.E. The
opinions of Chief Judge Smith and Judges Chagares, Hardiman,
Shwartz, Bibas, Porter, and Phipps are reflected in the Partial Dissent authored by Judge Porter and in Sections I and II.D. of the
Majority Opinion, and in the Conclusion in Section III, to the extent
the Conclusion addresses the subject considered in Section II.D.
The remaining portions of the Majority Opinion represent the precedential decision of the original panel in this case, consisting of
Judges Jordan, Scirica, and Rendell.
**

3a
I. BACKGROUND

On December 21, 2015, the owner of a storage facility
in Dover, Delaware reported to the police suspicious activity at one of the storage units, number C69. The
owner asked the police to visit the storage facility to discuss what he believed to be “drug occurrences” on his
property. (App. at 90.) When the police arrived, he
told them that, over the past several months, someone
had visited that unit frequently, as often as five times a
day. Each time, the man—whom he identified as Nasir
—would enter the storage unit and close the door behind
him. Shortly thereafter, he would reemerge and leave
the facility.
Concerned about illegal activity, the
owner had taken a photograph of the inside of the unit,
which he showed the officers. It revealed two large
coolers, two closed buckets, a box of baggies, a large
bag, and an aerosol spray can. The owner provided a
copy of a rental agreement signed by Nasir and a photocopy of Nasir’s driver’s license. The rental agreement listed Nasir’s storage unit as C43, not C69, but the
police apparently did not notice that discrepancy. 1
Following up on the information provided by the facility owner, the police ran a criminal history check on
Nasir and learned that he had a criminal record that included felony drug convictions. They visited unit C69
with a drug detection dog, and the dog positively alerted
to the presence of drugs there. Based on the accumulated evidence, the detectives applied for a search warrant for that unit.

Nasir had initially agreed to rent unit C43, but soon after transferred to unit C69.
1

4a
While awaiting the warrant, several police officers
remained at the storage unit, and one surveilled Nasir’s
home. The officer at the home saw Nasir place a large
black bag in the back of a Mercury Mariner SUV and
drive in the direction of the storage facility. Nasir in
fact went to the facility, and, when he arrived, the officers stopped him as he entered the row of units including
numbers C69 and C43. After handcuffing him and putting him in the back of a patrol car, they searched his
SUV, where they found a black duffle bag and a key to
unit C69.
That same night, a search warrant issued and was executed. In unit C69, the police found more than three
kilograms of marijuana, as well as scales and packaging
materials. The next day, they applied for and received
a search warrant for Nasir’s home and any vehicles on
the property. While executing the warrant, the officers found $5,000 in cash in a grocery bag in the house
and several handguns with ammunition in a Dodge
Charger parked on the property.
Nasir was indicted for violating 21 U.S.C. § 856(a)(1),
part of what is commonly known as the crack house statute (Count One), and was also charged under 21 U.S.C.
§§ 841(a)(1) and (b)(1)(D) for possession of marijuana
with intent to distribute (Count Two), and under 18
U.S.C. §§ 922(g)(1) and 924(a)(2) as a felon in possession
of a firearm (Count Three). He moved to suppress the
evidence obtained from the searches of the storage unit,
his house, and his vehicles. The District Court held
hearings on that motion and denied it.
At trial, and of particular relevance now, Nasir entered a stipulation with the government as to the charge
that he illegally possessed a firearm. Pursuant to Old

5a
Chief v. United States, 519 U.S. 172 (1997), 2 he stipulated that, prior to the date when he allegedly possessed
the firearm, he had been “convicted of a felony crime
punishable by imprisonment for a term exceeding one
year, in the United States District Court for the Eastern
District of Virginia.” 3 (Supp. App. at 21.) The jury
convicted him on all three counts of the indictment.
After the trial, Nasir filed a motion to set aside the
verdict and a motion for a new trial, both of which were
denied.
The District Court sentenced him to 210
months of imprisonment and three years of supervised
release, having determined that he qualified as a career
offender under the United States Sentencing Guidelines
(the “guidelines”) because of two earlier convictions in

Old Chief held that defendants in prosecutions under 18 U.S.C.
§ 922(g)(1) are entitled to enter a stipulation establishing their status
as felons (and thus as persons prohibited from possessing firearms),
in which case the government cannot introduce evidence establishing what the prior offense was. “The most the jury needs to know
is that the conviction admitted by the defendant falls within the class
of crimes that Congress thought should bar a convict from possessing a gun, and this point may be made readily in a defendant’s
admission . . . ” 519 U.S. at 174, 190-91.
3
In its entirety, the stipulation stated:
2

The United States of America, by and through its undersigned attorneys, and James Brose, attorney for Defendant
Nasir, hereby stipulate and agree to the following:
Prior to December 21, 2015, the date alleged in Count
Three of the Indictment, Defendant Malik Nasir was convicted
of a felony crime punishable by imprisonment for a term exceeding one year, in the United States District Court for the
Eastern District of Virginia.
(Supp. App. at 21.)

6a
Virginia, one from the year 2000 for attempting to possess cocaine with intent to distribute and one from 2001
for possession of cocaine and marijuana. This timely
appeal followed.
II.

DISCUSSION 4

Nasir raises five arguments. First, he says that
there was insufficient evidence to sustain his conviction
under the crack house statute because the section of the
statute under which he was convicted does not make it
unlawful to store drugs. Second, he argues that the officer who searched the Mercury Mariner did not have
probable cause to justify that search, so the evidence
found there should have been suppressed. Third, he
contends that a member of his jury was avowedly partial, so seating her deprived him of a fair trial. Fourth,
he asserts that the career offender enhancement under
the guidelines should not have factored into his sentencing because one of his prior felony convictions does not
qualify as a “controlled substance offense,” as that term
is defined in the guidelines. Finally, he argues that the
government did not prove that he knew he was a felon,
as is now required by Rehaif in a prosecution under 18
U.S.C. § 922(g), 139 S. Ct. at 2194, so his conviction under that statute for being a felon in possession of a firearm cannot stand.
We will affirm the District Court’s denial of Nasir’s
motion for acquittal as to Counts 1 and 2 and accordingly
affirm those convictions. In doing so, we reject Nasir’s
first three arguments. However, we agree that he does
not qualify for the career offender enhancement and
The District Court had jurisdiction under 18 U.S.C. § 3231.
have jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. § 3742.
4

We

7a
must be resentenced. We also hold that his conviction
for being a felon in possession of a firearm must be vacated and remanded for a new trial on that count of the
indictment.
A.

The Crack House Conviction

Nasir first challenges his conviction under the crack
house statute, specifically 21 U.S.C. § 856(a)(1), which
makes it unlawful to “knowingly . . . lease, rent,
use, or maintain any place . . . for the purpose of
manufacturing, distributing, or using any controlled
substance.” Despite the breadth of that language, Nasir argues that his conviction should be reversed because, he says, that subsection was not meant to cover
storage. 5 Nasir did not preserve that argument in the
District Court, so we review the denial of his motion for
judgment of acquittal for plain error. 6 United States v.
Olano, 507 U.S. 725, 731 (1993). We will reverse for
plain error only if there was an actual error that is plain,
that affects “the outcome of the district court proceedings,” and that “seriously affect[s] the fairness, integrity
or public reputation of judicial proceedings.” Id. at
5
Nasir does not argue that 21 U.S.C. § 856(a)(1) does not cover
storage units; instead, he says that it does not cover the activity of
storing. The distinction he attempts to draw is irrelevant here
because, as we will explain, there was ample evidence to support
the finding that Nasir was not merely storing drugs, he was distributing drugs from a rented place.
6
Nasir claims he preserved his position when he raised a sufficiency
-of-the-evidence challenge. At trial, Nasir’s attorney said, “[s]uccinctly, it’s our position that the government has not proved Mr. Nasir in possession of either the firearms or the marijuana.” (App. at
549.) But counsel’s generic statement, which made no reference to
21 U.S.C. § 856, was not sufficient to preserve a claim of error on this
issue.

8a
734-36 (citations and internal quotation marks omitted)
(alteration in original).
Nasir’s argument rests on the contrast between subsection (a)(1) of the crack house statute, which he was
convicted of violating, and subsection (a)(2), under which
he was not charged. That latter subsection declares it
unlawful to “manage or control any place, whether permanently or temporarily, . . . and knowingly and intentionally rent, lease, profit from, or make available for
use, with or without compensation, the place for the purpose of unlawfully manufacturing, storing, distributing,
or using a controlled substance.” 21 U.S.C. § 856(a)(2)
(emphasis added).
According to Nasir, because “storing” is listed as a
prohibited activity in subsection (a)(2) but is not mentioned in subsection (a)(1), it was intentionally excluded
from (a)(1). By his lights, since he was storing illegal
drugs, he should be safe from conviction under (a)(1).
But even if we were inclined to accept that subsection
(a)(1) does not cover storage, that does not help Nasir.
No sensible reading of the statute allows one to distribute drugs just because one is also storing them. Within
unit C69, besides the drugs themselves, there was drug
distribution paraphernalia, namely scales and packaging materials such as food storage bags. In addition to
that evidence, there was the testimony of the facility
owner about Nasir’s frequent and suspicious trips to the
unit. Subsection (a)(1) expressly prohibits “distributing” a controlled substance from any rented place, and
the jury was presented with more than ample evidence
that Nasir was doing just that. The District Court
properly instructed the jury that it could find Nasir
guilty of violating section 856(a)(1) if he used a “place for

9a
the purpose of manufacturing, distributing, or using
any controlled substance.” (App. at 615 (emphasis
added).) There was thus an obvious and legitimate basis for his conviction under the crack house statute, and
the District Court’s denial of Nasir’s motion for a judgment of acquittal was not error at all, let alone plain error.
B.

The Motion to Suppress Evidence from the SUV

Nasir also appeals the denial of his motion to suppress the evidence retrieved in the search of his Mercury Mariner SUV. He repeats the argument he made
in the District Court, saying that the officer who searched
the SUV lacked probable cause. We review de novo
whether there was probable cause to justify police action. United States v. Vasquez-Algarin, 821 F.3d 467,
471 (3d Cir. 2016).
The legal theories offered in opposition to and support of the SUV search have morphed over time. They
began with Nasir objecting to the search as the proverbial fruit of the poisonous tree. He said the “[p]olice
did not have cause to arrest [him] at the time he arrived
at the storage facility parking lot and accordingly all
statements made by him and any evidence found subsequent to his arrest should be suppressed.” (App. at
47.) In responding to that motion, the government said
that the search of the SUV “was a lawful search incident
to a valid arrest pursuant to Arizona v. Gant, 556 U.S.
332 (2009).” (App. at 60 n.21.) The government also
stated that, at the suppression hearing, it “would present evidence that the search . . . was a valid inventory search[,]” although apparently it did not do so.
(App. at 60 n.21.) In his post-hearing rebuttal briefing
before the District Court, Nasir argued that the search

10a
of the SUV was unlawful as a search incident to arrest
and as an inventory search. The District Court ultimately classified the search as being incident to Nasir’s
arrest but noted that, even if the search had occurred
prior to the arrest, “the search of the vehicle appears to
have been within the scope of the automobile exception”
to the warrant requirement of the Fourth Amendment.
(App. at 21 n.4 (citations omitted).)
On appeal, Nasir simply asserts that there was no
probable cause to search the SUV, without specifying
the legal framework for analysis. 7 We conclude that
the District Court correctly approached the issue as being a search incident to arrest. Even when, like Nasir,
an arrestee is detained and not within reach of his vehicle, the police may conduct “a search incident to a lawful
arrest when it is reasonable to believe evidence relevant
to the crime of arrest might be found in the vehicle.”
Gant, 556 U.S. at 343 (citation and internal quotation
marks omitted). Whether viewed as a question of probable cause to arrest Nasir or probable cause to search the
SUV under the automobile exception, however, the pertinent facts and the outcome are the same.
In challenging the search of the SUV, Nasir says that
the evidence uncovered in that vehicle—a black duffle
bag and the key to unit C69—should have been suppressed because the investigating officers did not corroborate the tip from the storage facility owner. Nasir
characterizes the owner as an unknown and unreliable
Although Nasir pointed out in his briefing that the arresting officer said he “[b]asically . . . looked at [the search] as an inventory search,” (App. at 138,) that does not appear to have been the
theory that the government pursued before the District Court or
now pursues on appeal.
7

11a
informant, and he lays particular emphasis on the incorrect unit number on the rental agreement the owner
provided to the police. Nasir also argues that the District Court impermissibly attributed information known
only to officers not present at the search to the officer
who actually conducted the search. His arguments are
unpersuasive.
When the police receive information from an informant for the first time, they have a duty to independently
corroborate at least some of the information the informant provides. See Illinois v. Gates, 462 U.S. 213, 242
(1983) (“[A]n officer may rely upon information received
through an informant, rather than upon his direct observations, so long as the informant’s statement is reasonably corroborated by other matters within the officer’s
knowledge.” (citation and internal quotation marks
omitted)). They discharged that duty in this case.
The arresting officers personally knew the following at
the time of the arrest and related search of the vehicle:
according to a background check, Nasir had a history of
drug dealing; the owner of the storage facility had reported Nasir engaged in suspicious activity at unit C69,
including making numerous trips to the storage unit,
sometimes several in a day; the owner had taken a photograph that showed items in the unit consistent with
drug distribution; an officer had seen Nasir put a bag in
the back of his car and drive toward the storage facility;
and a narcotics dog had positively alerted to drugs at
unit C69.
Given the totality of those circumstances known to
the officers who arrested Nasir, there was certainly
probable cause, reasonably corroborated, for Nasir’s arrest, and it was reasonable to believe that evidence of

12a
his drug dealing would be found in the SUV. 8 We will
therefore affirm the District Court’s denial of Nasir’s
motion to suppress.
C.

The Ruling on Alleged Juror Bias

Nasir next claims that he was deprived of a fair and
impartial jury because one of the jurors at his trial, Juror 27, did not unequivocally affirm that she would be
impartial. Our review of a ruling on a motion to strike
a juror for cause is for manifest error—a most deferential standard. Skilling v. United States, 561 U.S. 358,
396 (2010). The Supreme Court has emphasized that
jury selection is “particularly within the province of the
trial judge” and cautioned against “second-guessing the
trial judge’s estimation of a juror’s impartiality[.]” Id.
at 386 (citation and internal quotation marks omitted).
During voir dire, one of the questions the District
Court asked to determine juror partiality was, “Would
you give more or less weight to the testimony of a law
enforcement agent or police officer than you would give
to that of a civilian witness, simply because he or she is
employed as a law enforcement agent or police officer?”
(App. at 237-38.) Because Juror 27 answered “yes” to
that question, the following colloquy ensued:
We note, as did the District Court, that even if the search had
been performed prior to Nasir’s arrest, “the search of the vehicle
appears to have been within the scope of the automobile exception.”
(App. at 21 n.4 (citations omitted).) It is well established that under
the automobile exception to the warrant requirement, the police may
search a vehicle if they have probable cause to believe that the vehicle contains evidence of criminal activity. Carroll v. United States,
267 U.S. 132, 155-56 (1925). Here, the same facts that gave rise to
probable cause for an arrest can rightly be seen as independently
giving rise to probable cause for a search of the vehicle.
8

13a
A JUROR: [ . . . ] But the other thing that I
kind of answered “yes” to was police officer and a
person on the street. I would like to think I would
be partial (sic), but I don’t know.
THE COURT: You would like to think you would
be impartial and fair to both sides?
A JUROR:
to say.

Yes, impartial that is what I would like

THE COURT:
be?

What is your concern you wouldn’t

A JUROR: Well, my daughter dates a state police
officer. And I really have a lot of respect for them,
you know, and I feel that for the most part they all
do a good job, and they try to be fair. I think I
might tend to believe what they say. I don’t know.
THE COURT: Do you think if I instruct you that
you have to be fair and impartial and assess everybody’s credibility as best as you can that you would
be able to do that?
A JUROR:
would.

I would think I would.

I would hope I

(App. at 305.) Then, outside the juror’s presence the
Court and counsel had this further conversation:
[NASIR’S ATTORNEY]: Your Honor, I move to
strike on the basis that she—her daughter is dating
a state police officer and she would tend to believe
the officer and police testimony.
THE COURT:

What is the government’s position?

14a
[GOVERNMENT’S ATTORNEY]: Your Honor, I
don’t have a real strong one. That she would answer any questions that she was instructed [sic].
She could stay impartial. She confronted all those
issues. I certainly understand why [Defense counsel] is objecting.
THE COURT:

Any response?

[NASIR’S ATTORNEY]:
Honor.

No response, Your

THE COURT: I’m going to deny the motion. I
felt sufficient confidence that she would work as hard
as anyone could to be fair and impartial, and I think
she would follow the instructions. So I’m denying
the motion to strike.
(App. at 306-07). Nasir argues that the statements “I
would think I would” and “I would hope I would” are not
sufficiently strong affirmations of impartiality.
Because the juror admitted to her concern about partiality, the District Court quite rightly asked follow-up
questions to determine whether she was actually biased.
Cf. United States v. Mitchell, 690 F.3d 137, 142 (3d Cir.
2012) (holding that actual bias is “the existence of a state
of mind that leads to an inference that the person will
not act with entire impartiality[,]” unlike implied bias,
which is “presumed as [a] matter of law” (citations and
internal quotation marks omitted)). Here, Juror 27’s
acknowledgement that she “ha[s] a lot of respect for”
police officers and “might tend to believe what they say”
prompted the District Court to emphasize her obligation
to be fair and impartial and to weigh the evidence
equally. (App. at 305.) She responded with assurances that she would follow the Court’s instructions.

15a
Her declaration that she “would think” and “would
hope” (App. at 305) that she could be impartial—
combined, it seems, with the way in which she said it—
allowed the District Court, observing her behavior and
mannerisms first hand, to have “sufficient confidence
that she would work as hard as anyone could to be fair
and impartial.” (App. at 306-07.) That decision, on
this record, is not manifestly erroneous.
D.

The Career Offender Enhancement

Nasir next challenges the enhancement he received
at sentencing pursuant to the “career offender” provision of the sentencing guidelines. He argues that he
should not have received the enhancement because one
of his two prior qualifying convictions was an inchoate
drug offense, which does not qualify as a predicate offense under the plain language of the guidelines. The
interpretation of the guidelines is a legal question, so we
exercise plenary review. United States v. Wilson, 880
F.3d 80, 83 (3d Cir. 2018). We agree with Nasir that
the plain language of the guidelines does not include inchoate crimes, so he must be resentenced.
1.

The Definition of “Controlled Substance
Offenses” in the Guidelines

Under section 4B1.1 of the sentencing guidelines, an
adult defendant is a career offender if “the instant offense of conviction is a felony that is either a crime of
violence or a controlled substance offense; and . . .
the defendant has at least two prior felony convictions
of either a crime of violence or a controlled substance
offense.” U.S.S.G. § 4B1.1(a). If a defendant is a career offender, that designation increases the offense
level of the crime for which he is to be sentenced and

16a
mandates a criminal history ranking of Category VI.
U.S.S.G. § 4B1.1(b).
The District Court determined that one of Nasir’s
three convictions in this case is a controlled substance
offense, namely his conviction on Count Two for possession of marijuana with intent to distribute. After evaluating Nasir’s criminal history, the Court concluded
that two of his prior convictions in Virginia state court
also qualify as predicate controlled substance offenses:
a 2000 conviction for an attempt to possess with intent
to distribute cocaine and a 2001 conviction for possession of marijuana and cocaine with intent to distribute. 9
Nasir was accordingly sentenced as a career offender.
He argues that his conviction in 2000 for attempting
to possess with intent to distribute cocaine should not
qualify as a “controlled substance offense” under section
4B1.1 because the guidelines’ definition of a “controlled
substance offense” does not include inchoate crimes. 10
In particular, Nasir points out that section 4B1.2 of the
sentencing guidelines defines the term “controlled substance offense,” to mean
an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that
prohibits the manufacture, import, export, distribution, or dispensing of a controlled substance (or a

9
Nasir has other prior convictions, but the government and Nasir
appear to agree than none of them qualify as predicate offenses.
10
An inchoate offense is “[a] step toward the commission of another crime, the step itself being serious enough to merit punishment.” Offense, Black’s Law Dictionary (11th ed. 2019). Inchoate
offenses include, for example, the attempt, conspiracy, or solicitation
to commit a crime. Id.

17a
counterfeit substance) or the possession of a controlled substance (or a counterfeit substance) with
intent to manufacture, import, export, distribute, or
dispense.
U.S.S.G. § 4B1.2(b). Nasir notes this definition plainly
does not mention inchoate crimes, and consequently asserts that his inchoate “attempt” crime should not qualify as a predicate offense for the career offender enhancement. The analytical problem is more complicated than that, however, because the commentary to
section 4B1.2 appears to expand the definition of “ ‘controlled substance offense’ [to] include the offenses of
aiding and abetting, conspiring, and attempting to commit such offenses.” U.S.S.G. § 4B1.2 cmt. n.1. That
section of the commentary, and, importantly, our precedent on the application of the commentary to the interpretation of the guidelines, informed the District
Court’s decision to apply the career offender enhancement. The question, then, is whether the more expansive commentary should be given controlling weight in
interpreting the narrower guideline at issue here. 11

The Sentencing Commission has proposed an amendment to the
guidelines to explicitly include inchoate offenses in section 4B1.2(b).
Notice of Proposed Amendments, 83 Fed. Reg. 65400-01, 65412-15
(Dec. 20, 2018). The proposed change has been submitted for notice and comment, and the time for notice and comment has closed.
Id. However, the Commission does not currently have a quorum
(and has not had one since at least 2018), so it cannot act on that
issue. U.S. Sentencing Commission, 2018 Annual Report 2-3, available at https://www.ussc.gov/sites/default/files/pdf/research-andpublications/annual-reports-and-sourcebooks/2018/2018-AnnualReport.pdf.
11

18a
2.

The Effect of the Commentary on our
Interpretation of the Guidelines

The extent to which the guidelines’ commentary controls our interpretation of the guidelines themselves is
informed by principles of administrative law. In Stinson v. United States, 508 U.S. 36 (1993), the Supreme
Court considered how to classify the commentary to the
sentencing guidelines and whether and when it should
be given binding interpretive effect.
Because the
guidelines are written by the Sentencing Commission, a
body that straddles both the legislative and judicial
branches of the government, the Court determined that
the commentary to the guidelines is more akin to an
agency regulation than a statute. Id. at 44. Consequently, the Court determined that the commentary
should “be treated as an agency’s interpretation of its
own legislative rule.” Id. Relying on its opinion in
Bowles v. Seminole Rock & Sand Co., the Court said
that such determinations should be given deference unless they are “plainly erroneous or inconsistent with the
regulation.” Id. at 45 (quoting Bowles v. Seminole
Rock & Sand Co., 325 U.S. 410, 414 (1945)). Further,
the Court instructed that, “if the guideline which the
commentary interprets will bear the construction,” the
commentary can expand the guidelines, particularly
when the commentary is “interpretive and explanatory.”
Id. at 46-47. Accordingly, so-called Seminole Rock
deference, also sometimes called Auer deference, 12 governs the effect to be given to the guidelines commentary.
In 1945, the Supreme Court upheld a regulation from the Office
of Price Administration in Bowles v. Seminole Rock, after it determined that the language of the regulation was consistent with Administration’s interpretation of the regulation. Seminole Rock, 325
12

19a
Our precedent has followed that course. In United
States v. Hightower, 25 F.3d 182 (3d Cir. 1994), we applied the principles set forth in Stinson to determine
whether inchoate crimes are covered by sections 4B1.1
and 4B1.2 of the sentencing guidelines. We asked
“whether the Sentencing Commission exceeded its statutory authority by expanding the definition of a controlled substance offense” when it included inchoate offenses as part of the definition of the term “controlled
substance offense” in the commentary to section 4B1.2.
Hightower, 25 F.3d at 184 (internal quotation marks
omitted). We determined that the commentary to
4B1.2 was explanatory and therefore binding. Id. at
185-87. Specifically, although we admitted that the inclusion of inchoate crimes was an “expansion of the definition of a controlled substance offense[,]” we said that
the expansion was “not ‘inconsistent with, or a plainly
erroneous reading of,’ § 4B1.2(2) of the [s]entencing
[g]uidelines, and that it does not ‘violate[ ] the Constitution or a federal statute.’ ” Id. at 187 (second two alterations in original) (quoting Stinson, 508 U.S. at 38).
We later followed that precedent in United States v.
Glass, 904 F.3d 319 (3d Cir. 2018), in which we held that
a conviction under a Pennsylvania “attempt” statute
qualified as a predicate controlled substance offense for
the career offender enhancement under the guidelines.

U.S. at 417. Seminole Rock thus became shorthand for the doctrine of deference to an administrative agency’s interpretation of its
own regulations. More than fifty years later, in Auer v. Robbins,
519 U.S. 452 (1997), the Court reinforced that doctrine. The doctrine is thus sometimes referred to as Seminole Rock deference, after the case that introduced it, and at other times referred to as Auer
deference, the more recent reiteration of the doctrine.

20a
Our interpretation of the commentary at issue in
Hightower—the same commentary before us now—was
informed by the then-prevailing understanding of the
deference that should be given to agency interpretations
of their own regulations. Thus, although we recognized that the commentary expanded and did not merely
interpret the definition of “controlled substance offense,” we nevertheless gave it binding effect. In doing
so, we may have gone too far in affording deference to
the guidelines’ commentary under the standard set
forth in Stinson. Indeed, after the Supreme Court’s
decision last year in Kisor v. Wilkie, 139 S. Ct. 2400
(2019), it is clear that such an interpretation is not warranted.
In Kisor, the Court cut back on what had been understood to be uncritical and broad deference to agency interpretations of regulations and explained that Auer, or
Seminole Rock, deference should only be applied when
a regulation is genuinely ambiguous. Id. at 2414-15.
Kisor instructs that “a court must carefully consider the
text, structure, history, and purpose of a regulation, in
all the ways it would if it had no agency to fall back on.
Doing so will resolve many seeming ambiguities out of
the box, without resort to Auer deference.” Id. at 2415
(citation, brackets, and quotation marks omitted).
Thus, before deciding that a regulation is “genuinely
ambiguous, a court must exhaust all the traditional tools
of construction.” Id. (citation and quotation marks
omitted).
Even when a regulation is ambiguous, there are limits to deference. The agency’s reading must be “reasonable[,]” as informed by “[t]he text, structure, history,

21a
and so forth[,]” which “establish the outer bounds of permissible interpretation.” Id. at 2415-16. A court
“must make an independent inquiry into whether the
character and context of the agency interpretation entitles it to controlling weight[,]” including whether it is
the agency’s “official position[.]” Id. at 2416. Moreover, an agency’s interpretation must “in some way implicate its substantive expertise” if it is to be given controlling weight, since “[s]ome interpretive issues may
fall more naturally into a judge’s bailiwick.” Id. at
2417. Finally, the reading must “reflect fair and considered judgment” and not simply be a “convenient litigating position.” Id. (citations and quotation marks
omitted). In short, the degree of deference to be given
an agency’s interpretation of its own regulations is now
context dependent.
3.

Plain Text and Policy

The definition of “controlled substance offense” in
section 4B1.2(b) of the guidelines is, again, in pertinent
part as follows:
[A]n offense under federal or state law, punishable
by imprisonment for a term exceeding one year, that
prohibits the manufacture, import, export, distribution, or dispensing of a controlled substance (or a
counterfeit substance) or the possession of a controlled substance (or a counterfeit substance) with
intent to manufacture, import, export, distribute, or
dispense.
U.S.S.G. § 4B1.2(b). The guideline does not even mention inchoate offenses. That alone indicates it does not
include them. The plain-text reading of section 4B1.2(b)
is strengthened when contrasted with the definition of

22a
“crime of violence” in the previous subsection. That
definition in section 4B1.2(a) does explicitly include inchoate crimes, see U.S.S.G. § 4B1.2(a) (“The term ‘crime
of violence’ means any offense . . . that—(1) has as
an element the use, attempted use, or threatened use of
physical force against the person of another[.]” (emphasis added)), which further suggests that the omission
of inchoate crimes from the very next subsection was intentional.
That suggestion is separately bolstered by the fact
that section 4B1.2(b) affirmatively lists many other offenses that do qualify as controlled substance offenses.
As a familiar canon of construction states, expressio
unius est exclusio alterius: the expression of one
thing is the exclusion of the other. Applying that canon
has led at least one court of appeals to conclude that section 4B1.2(b) does not include inchoate crimes. See
United States v. Winstead, 890 F.3d 1082, 1091 (D.C.
Cir. 2018) (“Section 4B1.2(b) presents a very detailed
‘definition’ of controlled substance offense that clearly
excludes inchoate offenses.”).
There is an important additional policy advantage to
the plain-text approach: it protects the separation of
powers. If we accept that the commentary can do more
than interpret the guidelines, that it can add to their
scope, we allow circumvention of the checks Congress
put on the Sentencing Commission, a body that exercises considerable authority in setting rules that can deprive citizens of their liberty. Unlike the guidelines,
the commentary “never passes through the gauntlets of
congressional review or notice and comment.” United
States v. Havis, 927 F.3d 382, 386 (6th Cir. 2019) (en
banc) (per curiam); see also United States v. Swinton,

23a
797 F. App’x 589, 602 (2d Cir. 2019) (quoting same and
remanding for resentencing with an instruction for the
district court to “consider again whether, in light of the
concerns addressed in Havis and Winstead, the career
offender [g]uideline applies” to a defendant whose predicate offenses for the career offender enhancement include a conviction for attempted criminal sale of a controlled substance).
On that basis, along with the plain text of the guidelines, another of our sister courts of appeals has rejected
the notion that commentary to 4B1.2(b) can expand the
guidelines’ scope. See Havis, 927 F.3d at 386. (Because it has not been approved by Congress, “commentary has no independent legal force—it serves only to
interpret the [g]uidelines’ text, not to replace or modify
it.”). We too agree that separation-of-powers concerns
advise against any interpretation of the commentary
that expands the substantive law set forth in the guidelines themselves. Cf. 28 U.S.C. § 995(a)(20) (granting
the Sentencing Commission power to “make recommendations to Congress concerning modification or enactment of statutes relating to sentencing[.]” (emphasis
added)).
In light of Kisor’s limitations on deference to administrative agencies, we conclude that inchoate crimes are
not included in the definition of “controlled substance
offenses” given in section 4B1.2(b) of the sentencing
guidelines. Therefore, sitting en banc, we overrule
Hightower, and accordingly, will vacate Nasir’s sentence and remand for resentencing without his being
classified as a career offender.

24a
E.

The Felon-in-Possession Conviction

The final issue on appeal concerns Nasir’s conviction
under 18 U.S.C. § 922(g) for being a felon in possession
of a firearm. After Nasir filed his opening brief, the
Supreme Court decided Rehaif v. United States, holding
that, “in a prosecution under . . . § 922(g) . . . ,
the Government must prove both that the defendant
knew he possessed a firearm and that he knew he belonged to the relevant category of persons barred from
possessing a firearm.” 139 S. Ct. at 2200. The latter
half of that holding—that the government must prove
that the defendant knew of his status as a person prohibited from having a gun—announced a newly found element of the crime. For a defendant like Nasir, a previously convicted felon, that knowledge-of-status element means that the government has to prove that he
knew he was a “person . . . who has been convicted
. . . of . . . a crime punishable by imprisonment
for a term exceeding one year.” 18 U.S.C. § 922(g)(1).
Proving that a felon knew he possessed a gun remains
necessary but is no longer sufficient for a conviction.
Proof of knowledge of status is now essential.
Rehaif represents a reevaluation of an old and oftinvoked criminal statute. Nasir responded to the Supreme Court’s opinion by promptly filing a supplemental brief, arguing that his conviction as a felon in
possession of a firearm cannot stand since the government did not provide any evidence to prove the
knowledge-of-status element of the crime. He admits,
though, that he did not voice an objection to that at trial.
We therefore review for plain error.
Again, the test for plain error under United States v.
Olano proceeds in four steps and requires the defendant

25a
to prove that there was (1) an actual error (2) that is
plain or obvious, (3) that affected “the outcome of the
district court proceedings,” and (4) that “seriously affect[ed] the fairness, integrity or public reputation of judicial proceedings.” Olano, 507 U.S. at 734-36 (citations omitted). Even if the first three steps of the test
are met, the fourth step grants us a degree of discretion
in determining whether to correct the error. 13
Whether the alleged error is plain is evaluated based on
the law at “the time of appellate review[,]” regardless of
whether it was plain at the time of trial. Henderson v.
United States, 568 U.S. 266, 269 (2013). The government concedes that, in light of Rehaif ’s applicability in
this case, Nasir has satisfied the first two steps of Olano.
The dispute here is whether the third and fourth steps
are satisfied.
Before directly addressing those steps, however, it
bears repeating that, until Rehaif, § 922(g) had not been
understood as the Supreme Court interpreted it there.
No knowledge-of-status element had previously been

Our dissenting colleagues say that, in addressing whether to correct the conceded plain error in this case, we have failed to appreciate the purpose of plain error review under Federal Rule of Criminal
Procedure 52(b). (Dissent at 2-4.) In particular, the Dissent says
that we “seem[] to suggest a presumption in favor of error-correction.”
(Dissent at 4.) But we’ve said nothing of the sort. The import of
our statement here should be clear: it is not enough to win on the
first three prongs of Olano, because you can still lose at prong four.
The implication is quite the opposite of what the Dissent attributes
to us. The disagreement between our opinion and the Dissent
hinges not on what Rule 52(b) means but, as we shall explain, on
whether, given the type of error under consideration, we are free to
look beyond the trial record when deciding if we should exercise our
discretion under that rule.
13

26a
perceived in the statute, and no proof of it was required. 14 It is hardly surprising, then, that the government did not offer any evidence at Nasir’s trial that he
The Dissent implies that the knowledge-of-status element was
somehow well known before Rehaif. But to say, as our dissenting
colleagues do, that “the scienter issue was hardly a secret at the time
of Nasir’s trial,” is to set up a straw man. (Dissent at 3.) It is true
that scienter was understood to be a required point of proof in a
§ 922(g) prosecution, but the knowledge that had to be proven was
the defendant’s knowledge that he possessed a firearm. While the
Dissent has been able to identify a very few—three—dissenting
opinions in appellate cases suggesting a knowledge-of-status element, such scienter was not a holding in any case, it appears, except
for a single unreported district court case from many years ago.
The small handful of judges who anticipated the Supreme Court’s
turn by a dozen years deserve credit, but that hardly warrants the
Dissent’s effort to paint the knowledge-of-status element as something that was current in conversation within the bench and bar.
Far from it. As Justice Alito noted in his dissent in Rehaif, the Supreme Court majority in that watershed case “overturn[ed] the longestablished interpretation of an important criminal statute, . . .
an interpretation that ha[d] been adopted by every single Court of
Appeals to address the question” and an interpretation that “ha[d]
been used in thousands of cases for more than 30 years.” 139 S. Ct.
at 2201. So we think our emphasis on the unexpected and striking
impact of Rehaif is fully justified.
What is not justified is the Dissent’s suggestion that Nasir’s failure to object “deprived the government and trial court of . . . opportunities” to “supplement the record with additional evidence of
Nasir’s mens rea.” (Dissent at 4.) Regardless of whether the
knowledge-of-status element was widely recognized before Rehaif,
the government’s burden of proving that element, and every other
element of the § 922(g) charge, was the same. Nothing that Nasir
did or didn’t do at trial affected that. Failure to object at trial begets plain-error review on appeal; it does not reverse the constitutionally mandated burden of proof and does not put the government
on moral high ground in our assessment of the consequences of plain
error, as the Dissent seems to think. If the Dissent wants to think
14

27a
knew he was a felon, and the District Court did not instruct the jury that such proof was necessary. Since
Rehaif, the government has claimed that the evidence
admitted at the trial in this case was adequate to prove
that, when Nasir was found with guns in his possession,
he knew he was a felon and hence a person prohibited
from possessing a firearm. But, perhaps recognizing
how unconvincing that characterization of the evidence
is, the government has spent the majority of its efforts
in this appeal on a more plausible but still ultimately unsuccessful argument: that, even if the record is devoid
of proof on the knowledge-of-status element, we should
not recognize and correct the error on plain-error review because Nasir surely did know that he was a felon.
That brings us to the difficult and dividing issue in
this case, one that has elicited a variety of responses
from other courts of appeals dealing with the aftermath
of Rehaif. The assertion that Nasir knew he was a
felon is founded entirely on information that his jury
never saw or heard, so the question is whether an appellate court on plain-error review is restricted to the trial
record or is instead free to consider evidence that was
not presented to the jury. We conclude that, even on
plain-error review, basic constitutional principles require us to consider only what the government offered
in evidence at the trial, not evidence it now wishes it had
offered. Accordingly, we will vacate Nasir’s conviction
in terms of fault—an exercise that seems unproductive, especially in
light of the marked change in the law wrought by Rehaif—then
surely some fault must fall on the government for failing to recognize
that knowledge-of-status is an element of the offense and therefore
failing to introduce evidence about Nasir’s knowledge of his prior
felony.

28a
for being a felon in possession of a firearm and will remand for a new trial on that charge. 15
1.

Due Process and the Right to Trial by Jury
Limit our Review to the Trial Record

As stated by the Supreme Court in In re Winship,
“the Due Process Clause protects the accused against
conviction except upon proof beyond a reasonable doubt
of every fact necessary to constitute the crime with
which he is charged.” 397 U.S. 358, 364 (1970). The
government has to prove its case to the “proper factfinder,” and “[d]ue process commands that no man shall
lose his liberty unless the Government has borne the
Nasir raises three Rehaif-based challenges to his conviction:
that the indictment was defective for omitting knowledge-of-status
as an element of the crime, that the jury was not properly instructed
that knowledge-of-status is an element of the crime, and that the
government did not present sufficient evidence of knowledge-ofstatus. While we are persuaded by Nasir’s last argument and recognize some merit in the second, we see no merit at all in the first.
The language of the indictment echoes the language of the statute,
stating that Nasir “did knowingly possess in and affecting interstate
and foreign commerce, firearms . . . after having been convicted
of a crime punishable by imprisonment for a term exceeding one
year[.]” (App. at 40-41.) The indictment thus mirrors the language of the statute by listing the “knowingly” mens rea element
first, allowing it to modify the other elements of the crime. See
Hamling v. United States, 418 U.S. 87, 117 (1974) (“It is generally
sufficient that an indictment set forth the offense in the words of the
statute itself, as long as ‘those words of themselves fully, directly,
and expressly, without any uncertainty or ambiguity, set forth all the
elements necessary to constitute the offence intended to be punished.’ ” (quoting United States v. Carll, 105 U.S. 611, 612 (1882)).
Because the language of the indictment is not uncertain or ambiguous, there was no error, much less plain error, in allowing prosecution of the § 922(g) count of the indictment.
15

29a
burden of . . . convincing the factfinder of his guilt.”
Id. In the context of a jury trial such as Nasir’s, the
requirements of due process are further bolstered by
the Sixth Amendment, which allocates the role of
“proper factfinder” to the jury, and to the jury alone.
Indeed, going back at least as far as Blackstone, it has
been a given that the jury—not appellate judges after
the fact—must find “the truth of every accusation” for a
conviction to be sustained. 16 4 William Blackstone,
Commentaries on the Laws of England, *343-44. The
jury has “an unquestionable right” to decide the case,
“for, if the judge’s opinion must rule the verdict, the trial
by jury would be useless.” Id. at *354-55. Accordingly, to secure a conviction that is consistent with its
constitutional obligations, the government must present
evidence to the jury to prove beyond a reasonable doubt
every single element of the crime.
Notably, no one questions that if we were reviewing
a sufficiency-of-the-evidence objection that had been
preserved at trial, our review would be confined to the
trial record. Only evidence and argument that had actually been proffered would matter. That foundational
On this point, we are in full agreement with the concurrence of
our colleague Judge Matey, which eloquently emphasizes the right
to trial by jury. Although our colleagues in dissent say that they
“do not purport to ‘find facts’ in order to overcome a deficiency in
the evidence and on that basis pronounce the defendant’s conviction
while relieving the government of its burden” (Dissent at 7), that is
precisely the effect of their position. If no facts were given to the
jury from which the existence of an element of the charged crime can
be determined, and if the appellate court then searches outside the
trial record to discover facts that will fill that void, those appellate
judges are indeed finding facts to decide the case. That is antithetical to the right to a jury trial.
16

30a
point, rooted as it is in the Due Process Clause of the
Fifth Amendment, serves as a bright-line rule, buttressed by the Sixth Amendment’s guarantee of trial by
jury. The question before us thus becomes whether
the plain-error standard of review permits us to disregard the demands of the Due Process Clause and the
Sixth Amendment and to affirm a conviction when no evidence was presented to the jury on one of the elements
of the charged offense. We think the answer to that
question has to be no.
To rule otherwise would give us free rein to speculate
whether the government could have proven each element of the offense beyond a reasonable doubt at a hypothetical trial that established a different trial record.
But no precedent of the Supreme Court or our own has
ever sanctioned such an approach. To the contrary,
given the dictates of the Due Process Clause, as described in Winship, 397 U.S. at 364, our inquiry must
necessarily focus on whether the government did prove
—or at least introduced sufficient evidence to prove—
each element of the offense beyond a reasonable doubt
at the actual trial. And Nasir’s right to trial by jury
reinforces that point: “Consistent with the jury-trial
guarantee, the question [that precedent] instructs the
reviewing court to consider is not what effect the constitutional error might generally be expected to have upon
a reasonable jury, but rather what effect it had upon the
guilty verdict in the case at hand.” Sullivan v. Louisiana, 508 U.S. 275, 280 (1993) (emphasis added).

31a
Plain error is a deferential standard, to be sure, but
it does not alter fundamental constitutional precepts. 17
Accordingly, the Supreme Court has limited itself to the
trial record in analogous cases. The exact procedural
posture we are in now was present in Johnson v. United
States, 520 U.S. 461 (1997). The defendant in that case
was convicted of perjury, but, before her direct appeal
to the Eleventh Circuit was concluded, the Supreme
Court handed down an opinion holding that the materiality of a false statement had to be decided by a jury rather than the trial judge. Id. at 463-64. The defendant had not objected at trial to the judge being the one
who made the decision on materiality, because no one at
the time knew there was such an objection to be made.
Id. at 464. The Eleventh Circuit decided that the error
inherent in the judge rather than the jury making the
materiality decision did not affect the defendant’s substantial rights. Id. In other words, it decided the
case at Olano step three.
It made that decision,
though, not in spite of a government failure to carry the
constitutionally mandated burden of proof but precisely
because the government had carried its burden so fully.
As described by the Supreme Court, the Eleventh Circuit conducted an “independent review of the record and
This may be where our views and those of our dissenting colleagues diverge most dramatically. The Dissent says we are “fixate[d] on Winship’s requirement of proof beyond a reasonable doubt
in criminal trials” and have a “misconception of plain-error review
[that] infects [our] entire discussion of the record . . . ” (Dissent at 8.) Since Winship only said what the Constitution itself requires, the Dissent might just as well say we are fixated on the Constitution. The intimation is that, if we really understood plain-error
review under Rule 52(b), we would not be so bothered by someone’s
being convicted without a shred of proof having been introduced at
trial on one of the elements of the charged offense.
17

32a
determin[ed] that . . . ‘overwhelming’ evidence of
materiality” had been provided to the jury, so “[n]o reasonable juror” could have decided the materiality question in any way other than as the trial judge did. Id. at
465 (second alteration in original).
The Supreme Court agreed with the outcome but
took a different analytical path. It did not address the
plain-error analysis in Johnson at Olano step three, as
the court of appeals had. Instead, it went directly to
step four, and, accepting that the evidence on materiality in the trial record was so “overwhelming” that a rational jury could not reach any conclusion but guilt, the
Court decided that the fairness, integrity, and reputation of the judicial process could not be called into question by the conviction. Id. at 469-70. The argument
for reversal on plain error failed, in other words, based
on the trial record. Johnson thus highlights the importance of the government carrying its constitutional
burden at trial. 18

The Dissent asserts that our “insistence that [the Olano] prongfour analysis is . . . limited to the time of trial (as memorialized in
the trial record) is unwarranted and finds no support in Johnson.”
(Dissent at 6.) We will leave to thoughtful readers to decide who
has more faithfully considered the text of Johnson. Suffice it to say
that our reading finds ample support in that text and makes perfect
sense, particularly in light of later Supreme Court pronouncements,
like those in Neder v. United States, 527 U.S. 1 (1999).
In Neder, a similar legal error was at issue. As in Johnson, the
district court wrongly decided the issue of the materiality of false
statements, this time in a case that included the filing of false tax
returns. Over the defendant’s objection, the district judge had instructed the jury that the question of materiality was for the court
alone to decide. Looking at the evidence produced by the government at trial, the trial judge found that “the evidence established
18

33a
Given the due process and Sixth Amendment concerns in play here, we are not free to suppose what the
government could have proven at a different trial. The
only relevant question, even on plain-error review, is
what the government did prove at this trial. Nevertheless, while the constitutional implications of Rehaif seem
clear to us, they are not beyond dispute, as the close division among us in this en banc appeal shows and as is
further evidenced by decisions from our sister circuits.
2.

The Differing Approaches of Other Courts of
Appeals

With one exception, 19 other courts of appeals that
have considered whether the government’s failure to
the materiality of all the false statements at issue.” Id. at 6. The
Eleventh Circuit affirmed the conviction. On review, the Supreme
Court applied the harmless-error standard from Chapman v. California, 386 U.S. 18 (1967), because the defendant had lodged an objection to the ruling at issue (in contrast to Nasir and the defendant
in Johnson, both of whom were left with plain-error review because
they failed to object). In the end, the Supreme Court said that the
jury-instruction error was harmless because there was so much evidence of materiality in the trial record that “no jury could reasonably find that Neder’s failure to report substantial amounts of income
. . . was not a ‘material matter.’ ” 527 U.S. at 16. So again, it was
not in spite of the government’s failure to carry its burden of proof
but rather because it had carried its burden so overwhelmingly that
the Court upheld the conviction.
19
In United States v. Medley, 972 F.3d 399 (4th Cir. 2020), the
Fourth Circuit vacated a defendant’s jury trial conviction on plainerror review after Rehaif because the indictment did not allege
knowledge-of-status, the government had presented no evidence of
knowledge-of-status at trial, and the jury was not instructed to find
knowledge-of-status. However, the Court did not address the issue
we confront here, namely whether we are restricted to the trial record on plain-error review of a jury conviction. It is noteworthy,

34a
prove the knowledge-of-status element in a 922(g) prosecution is plain error have decided that it is not. They
have reached that result based on their preliminary conclusion that they are permitted to look outside the trial
record to find evidence to plug the gap left by the prosecution at trial. The justifications offered for that view
are not all of a piece. See United States v. Huntsberry,
956 F.3d 270, 284 (5th Cir. 2020) (“We note that our sister courts have taken different paths on this issue.”).
Under one line of thinking, the Supreme Court’s decision in United States v. Vonn, 535 U.S. 55 (2002), authorizes consideration of the entire record, not just the
trial record, at step three of plain-error review of a jury
verdict, even though Vonn was decided in the context of
a guilty plea. United States v. Ward, 957 F.3d 691, 695
& n.1 (6th Cir. 2020); United States v. Reed, 941 F.3d
1018, 1021 (11th Cir. 2019). A second rationale holds
that a reviewing court is limited to the trial record on
the first three steps of plain-error review but may look
to the entire record at the fourth step, which involves
the exercise of discretion in considering potential harm
to the reputation of the judiciary. United States v. Owens, 966 F.3d 700, 706-07 (8th Cir. 2020); United States
though, that the majority in that case appeared to take it as given
that it was limited to the trial record, id. at 417 (noting that the government “provided substantial post-trial evidence supporting [the
defendant’s] knowledge of his prohibited status” but “declin[ing] the
Government’s invitation to engage in the level of judicial factfinding
that would be required to affirm,” given the trial record), while the
dissent appears to have assumed that it was not so limited, id. at 41920 (Quattlebaum, J., dissenting) (asserting that the conviction should
be sustained because the defendant had previously served more than
twelve years in prison for second-degree murder, information that
was not presented to the jury).

35a
v. Maez, 960 F.3d 949, 961 (7th Cir. 2020); United States
v. Miller, 954 F.3d 551, 560 (2d Cir. 2020). We respectfully disagree with both of those perspectives, neither of
which can comfortably co-exist with our own precedent,
nor, to our thinking, with due process, the Sixth Amendment, or relevant Supreme Court authority.
The trailblazer on the first path—the one resting on
the Supreme Court’s decision in Vonn—was the Eleventh Circuit in United States v. Reed, a case initially decided on the basis of the pre-Rehaif state of the law.
941 F.3d at 1019. When the case reached the Supreme
Court on certiorari, the Court vacated the judgment and
sent the matter back for further proceedings consistent
with Rehaif. Id. On remand, the Eleventh Circuit
determined that, even though it was reviewing a conviction after a jury trial, it could nonetheless “consult the
whole record when considering the effect of any error
on [the defendant’s] substantial rights.” Id. at 1021.
As authority for that premise, the Court cited Vonn,
which held that, when a defendant has entered a guilty
plea and later asserts on appeal that there was a failure
to ensure the plea’s voluntariness through a colloquy under Rule 11 of the Federal Rules of Criminal Procedure, 20 “a [previously] silent defendant has the burden
to satisfy the plain-error rule and that a reviewing court
may consult the whole record when considering the effect of any error on substantial rights.” 535 U.S. at 59;
see Reed, 941 F.3d at 1021. Other circuits have cited
Under Rule 11, if the defendant has pled guilty, “the court must
address the defendant personally in open court and determine that
the plea is voluntary and did not result from force, threats, or promises (other than promises in a plea agreement).” Fed. R. Crim. P.
11(b)(2).
20

36a
Reed for the premise that, on plain-error review, an appeals court may satisfy itself of an element with evidence that was never presented to a jury. See United
States v. Mancillas, 789 F. App’x 549, 550 (7th Cir.
2020); cf. Ward, 957 F.3d at 695 n.1 (6th Cir. 2020) (citing
Vonn, 535 U.S. at 59).
The problem with Reed and the cases that follow it,
however, is that Vonn involved review of the voluntariness of a guilty plea, a procedural posture that is completely unlike the review of a conviction following trial.
In Vonn, the Supreme Court held that, in ascertaining
the adequacy of a Rule 11 colloquy, a reviewing court
may look beyond the colloquy to the record created at a
defendant’s initial appearance and arraignment “[b]ecause . . . defendants may be presumed to recall information provided to them prior to the plea proceeding[.]” Vonn, 535 U.S. at 75. The focus was, appropriately, on the information known to the defendant at
the time of the plea because, when a defendant pleads
guilty, the district court must ensure that the plea is
knowing and voluntary. That’s the job at the plea
stage because it is what due process demands in that
context. McCarthy v. United States, 394 U.S. 459, 466
(1969) (“[I]f a defendant’s guilty plea is not equally voluntary and knowing, it has been obtained in violation of
due process and is therefore void.”). And the reviewing court’s job is to make sure of the same thing, which
makes it logical to look at what a defendant was told at
earlier stages of the criminal proceedings.
The question is quite different when reviewing whether
the government has borne at a trial—or even at a plea

37a
proceeding 21—its burden to “convince the trier [of fact]
of all the essential elements of guilt.” Winship, 397
U.S. at 361 (citation omitted). In that procedural setting, due process and Sixth Amendment considerations
compel us to focus our inquiry on the information presented to the trier of fact—in this case, the jury. Vonn
is inapposite where, as here, we are concerned not with
the facts possessed by the defendant and their effect on
the voluntariness of his plea but with the information
presented to the fact-finder to prove an element of the
charged offense. Put differently, when there has been
a plea rather than a trial, no one is concerned about or
mentions the adequacy of the trial record because there
is none. Likewise, however, when there has been a
trial and an utter failure of proof is at issue, it is simply

Because we of course acknowledge that a guilty plea must be
knowing and voluntary, the Dissent concludes that we are “comfortable inferring a defendant’s knowledge-of-felon status from his prior
guilty plea.” (Dissent at 9 n.5.) The Dissent therefore faults us
for refusing to consider Nasir’s three prior guilty pleas—especially
one for a felon-in-possession charge. That conviction is one that
our colleagues especially emphasize as a “central reason” not to correct the plain error here. (Dissent at 9 n.5.) But the fact that a
guilty plea must be knowing and voluntary has no bearing on
whether we may consider a guilty plea that was never presented to
the jury. What divides us has nothing to do with the strength of the
evidence outside the trial record. It has everything to do with
whether, consistent with constitutional safeguards, we can properly
go outside the trial record. And to the extent the Dissent suggests
that the government is free to ignore the elements of the charged
offense at a plea colloquy, we disagree with that as well. The government must always make a record demonstrating a factual basis
for the crime to which the plea is entered.
21

38a
beside the point to rely on case law dealing with the voluntariness of plea colloquies. 22
The second rationale adopted by some courts for going beyond the trial record acknowledges that a reviewing court is restricted to the trial record at the first
three steps of plain-error review, but then holds that the
The Dissent asserts that United States v. Young, 470 U.S. 1
(1985), supports its position, and the position taken in Reed, 941 F.3d
at 1020-21, that we must consider evidence outside the trial record
when applying Olano step four. (Dissent at 14-15.) Not so. Although
Young does refer to “the entire record,” it does so in a way that, in
context, makes plain that what the Supreme Court was referring to
was the entire trial record. The full quote from Young reads as
follows:
22

Especially when addressing plain error, a reviewing court cannot properly evaluate a case except by viewing such a claim
against the entire record. We have been reminded: “In reviewing criminal cases, it is particularly important for appellate courts to relive the whole trial imaginatively and not to
extract from episodes in isolation abstract questions of evidence and procedure. To turn a criminal trial into a quest for
error no more promotes the ends of justice than to acquiesce
in low standards of criminal prosecution.” It is simply not
possible for an appellate court to assess the seriousness of the
claimed error by any other means.
470 U.S. at 16 (emphasis added) (internal citation and quotation
marks omitted).
Far from supporting the Dissent or Reed, that statement emphasizes that our focus is supposed to be on the actual field of play—the
trial—to see whether the government has fulfilled its constitutional
obligations in a way that preserves the fairness and integrity of the
prosecution and maintains the confidence of the public. The trial
record is the only place to which one rightly can look if what is being
considered is the trial supposedly under review. For purposes of
Olano step four, and for this type of error, the trial is the only judicial proceeding at issue.

39a
fourth step changes the scope of review. Since the
fourth step of Olano calls for the exercise of discretion,
and since that discretion must account for potential
harm to the reputation of the judiciary, those courts say
it is fine to look outside the trial record because the public will. The reasoning is, in effect, that the defendant
is obviously guilty and the justice system will not appear
to have served justice if, through no fault of the prosecution, the defendant is freed on the technicality that
proof of a previously unknown element of the offense
was not offered in evidence. 23
The Second Circuit took essentially that approach in
United States v. Miller. In analyzing a Rehaif challenge to jury instructions, the court decided that “the
substantial-rights analysis [, i.e., the Olano step three
Applying a different version of this approach, the Fifth Circuit
at first declined to answer whether it was limited to the trial record
on plain-error review but determined that it could judicially recognize facts at the fourth step of plain-error review, including a defendant’s prior state convictions. See Huntsberry, 956 F.3d at 285-86.
Subsequently, however, the Fifth Circuit decided that it is permitted
to look outside the trial record at the fourth step. See United States
v. Staggers, 961 F.3d 745, 756 (5th Cir. 2020); see also United States
v. Burden, 964 F.3d 339, 348 n.8 (5th Cir. 2020). In another postRehaif case, the First Circuit similarly indicated that judicial notice
might be a proper path to resolution, but in the end, it did not take
that path. United States v. Lara, — F.3d —, Nos. 17-1957, 17-1964,
2020 WL 4668535, at *13 (1st Cir. Aug. 12, 2020) (noting that “the
government had available to it evidence of [the defendant’s] four recent and serious convictions from Maine,” and although it did not
present that evidence at trial, “we regularly take judicial notice of
. . . state court records given their presumed reliability”). For the
reasons discussed herein, however, we are unpersuaded that judicial
notice can properly be used as a means to circumvent a defendant’s
rights to due process and trial by jury.
23

40a
question,] in [the defendant’s] case is a difficult one,
given the paucity of factual development at trial pertaining to a question that was not discerned before Rehaif
was decided.” 954 F.3d at 559. Because the stepthree question was difficult, the court chose “to resolve
[the] case on the fourth prong of plain-error review[,]
. . . which does not necessarily confine us to the trial
record.” Id. The court cited no authority for that
postulate about being free to roam beyond the trial record. It asserted it and then, noting that the presentence investigation report provided ample evidence that
the defendant must have known he was a felon, and referencing his stipulation at trial, concluded that the fairness and integrity of the judicial system would not be
questioned, even though there was a “paucity” of evidence of his guilt presented at trial. Id. at 559-60.
The Seventh Circuit has adopted the same kind of approach. In United States v. Maez, it began by explaining why Vonn is not applicable when reviewing jury convictions, distinguishing that case as we have above
and saying, “[t]he Supreme Court has made clear that
harmless-error analysis [performed at Olano step
three] looks only to the trial record to measure the effect
of trial error.” Maez, 960 F.3d at 961. It reasoned
that such a “restriction to the jury record flows logically
from the nature of a substantial-rights inquiry on direct
review.” Id. When asking whether a trial error affected substantial rights, “[t]he more abstract question
of the defendant’s actual guilt or innocence is not the issue. Rather, the appellate court asks what effect the
error could have had on the verdict in the trial actually
conducted.” Id. But the court then decided that, because the fourth step of plain-error review is a separate,
discretionary step, reviewing courts may, and perhaps

41a
should, consider claims of actual innocence. Id. at 962.
Having determined that appellate courts “have broad
discretion under prong four to leave even plain errors
uncorrected where we have no doubt as to the ultimate
result of further proceedings[,]” the court decided that
step-four “discretion necessarily implies some power to
look beyond the trial record to assess an error’s effect,
at least for the errors argued here, where . . . [Old
Chief] prevented the government from offering a great
deal of circumstantial evidence showing” knowledge-ofstatus. 24 Id. at 963. The only authority cited for looking beyond the trial record was the Second Circuit’s decision in Miller. 25 Id.
Subsequently, the Seventh Circuit has exercised its discretion to
recognize the plain error in a post-Rehaif challenge to a § 922(g) conviction. See United States v. Cook, 970 F.3d 866 (7th Cir. 2020).
25
The First Circuit has also recently joined the ranks of the Second and Seventh Circuits, saying that “the Supreme Court has never
suggested that we are categorically barred from taking into account
evidence not introduced at trial in considering whether an instructional error satisfies the fourth prong of plain-error review.” Lara,
2020 WL 4668535, at * 13. Although the Court acknowledged the
due process concerns in “revis[ing] the basis on which a defendant is
convicted simply because the same result would likely obtain on retrial,” id. at *14 (citation omitted), it nonetheless characterized a reversal in this context as “wasteful” and declined to exercise its discretion to notice the error on the fourth prong of plain-error review,
id. at *13-14.
Similarly, the Ninth Circuit has decided that examination of evidence outside the trial record is permissible to avoid “wasteful reversals.”
United States v. Johnson, No. 17-10252, 2020 WL
6268027, at *4 (9th Cir. Oct. 26, 2020) (quoting United States v.
Dominguez Benitez, 542 U.S. 74, 82 (2004)). The court’s Johnson
decision had an earlier iteration in which the expressed rationale for
looking outside the trial record was the availability of a retrial in the
case and the court’s conclusion (suspect, in our view) that the Double
24

42a
Our disagreement with this fourth-step approach is
that it treats judicial discretion as powerful enough to
override the defendant’s right to put the government to
its proof when it has charged him with a crime. 26 We
do not think judicial discretion trumps that constitutional right, and neither Miller nor Maez cite any preRehaif authority supporting a contrary conclusion.
Moreover, those decisions and the ones that follow them
Jeopardy Clause is the source of the ordinary prohibition on going
beyond the trial record when conducting appellate review. United
States v. Johnson, 963 F.3d 847, 851 (9th Cir. 2020) (vacated).
While the unusual Double Jeopardy rationale may have made a
cameo appearance in the most recent version of Johnson, see 2020
WL 6268027, at *4 (“To satisfy the fourth prong when a retrial
would be permissible, a defendant must offer a plausible basis for
concluding that an error-free retrial might end more favorably.”
(emphasis added)), the court’s stated basis for looking past the government’s proof at trial is now more in line with the Olano prong
four analysis in Miller and Maez.
26
As discussed below, we think the existence of an Old Chief stipulation has little relevance to the analysis and, thus, disagree with
the Seventh Circuit’s conclusion that it was justified in straying from
the trial record on that basis. To the extent that either the Second
or Seventh Circuit (or any other court of appeals) sought to make a
broader point that going beyond the trial record was permissible because the government presented all of the evidence it needed to,
given the state of the law prior to Rehaif, our views again diverge.
Whether fair to the government or not, it does not matter that the
change in the law came after trial. The Supreme Court has said
that the error must be measured based on the law at the time of appeal. See Henderson, 568 U.S. at 273 (“Johnson explicitly rejects
applying the words ‘plain error’ as of the time when the trial judge
acted. Instead, Johnson deems it ‘enough that an error be “plain”
at the time of appellate consideration’ for that error to fall within
Rule 52(b)’s category of ‘plain error.’ ” (quoting Johnson, 520 U.S.
at 468)). There will be cases that fall in the gap between the state
of the law at trial and the state of the law on appeal. This is one.

43a
are independently troubling to the extent they imply
that relief on plain-error review is available only to the
innocent. 27 That is a proposition the Supreme Court
put to rest in Rosales-Mireles v. United States, 138
S. Ct. 1897 (2018), when it observed that “Olano rejected
a narrower rule that would have called for relief only
. . . where a defendant is actually innocent.” Id. at
1906.
And as for any objection that technicalities can be
overlooked on plain-error review, we do not accept that
the question of whether we are confined to the trial record is a mere technicality. It is, in our view, a matter
of the highest importance. The word “technicality” is
too often used to denigrate a principle that stands between an advocate and a preferred result. “All law is
technical if viewed solely from concern for punishing
crime without heeding the mode by which it is accomplished.” Bollenbach v. United States, 326 U.S. 607,
The Dissent suggests the same. Indeed, the consistent theme
of the Dissent is that, when evidence outside the trial record is considered, it is so obvious that Nasir is guilty that we are “profoundly
mistaken” (Dissent at 1) in “persist[ing]” in our desire to correct a
plain error of constitutional magnitude that has affected Nasir’s substantial rights. (Dissent at 19.) “[I]n the face of overwhelming,
reliable information supporting Nasir’s conviction” (Dissent at 19),
our persistence is explained as “a reflexive inclination . . . to reverse because of unpreserved error[.]” (Dissent at 19 (quoting
Puckett v. United States, 556 U.S. 129, 134 (2009)).) Our view, however, is more reflective than reflexive and is consistent with the Supreme Court’s instruction that “the public legitimacy of our justice
system relies on procedures that are neutral, accurate, consistent,
trustworthy, and fair, and that provide opportunities for error correction.” Rosales-Mireles v. United States, 138 S. Ct. 1897, 1908
(2018) (internal quotation marks and citation omitted).
27

44a
614-15 (1946). The Constitution puts procedural safeguards in place to protect against just such an approach.
Given the imperative of due process, and “[i]n view of
the place of importance that trial by jury has in our Bill
of Rights,” it should not be supposed that “the belief of
appellate judges in the guilt of an accused, however justifiably engendered by the dead record, [can be substituted] for ascertainment of guilt by a jury under appropriate judicial guidance, however cumbersome that process may be.” Id. at 615.
In sum, we disagree with both variants of the rationales that other courts of appeals have adopted to justify
unmooring themselves from the trial record when conducting plain-error review. 28 Given our view of the due
process and jury trial rights at issue, our analysis of Nasir’s claim of plain error will be confined to the trial record and the evidence the government actually presented
to the jury.
The Dissent relies heavily on the several cases we have just discussed and others following them, counting the number of courts and
judges and asking, “[h]ow could so many federal judges approve
the obvious violation of important Fifth Amendment and Sixth
Amendment rights?” (Dissent at 13.) We are certainly aware
that thoughtful people can analyze the plain-error conundrum here
differently than we have. But then, not long ago, there was a contrary consensus that plain-error relief is warranted when the trial
record is “devoid of evidence.” See United States v. Castro, 704
F.3d 125, 138 (3d Cir. 2013) (citation omitted) (collecting cases).
More to the point, however, we are making an independent judgment, as we are required to do, and counting up judges who see the
issue differently does not alter our obligation. The answer to the
old saw that “fifty million Frenchmen can’t be wrong” is yes, they
can. Rehaif itself is an example of everyone except the Supreme
Court seeing an issue the same way and, given the Supreme Court’s
position in our judicial hierarchy, all of them being wrong.
28

45a
3.

Applying Plain-Error Review

Turning to the trial record, and with the first two
steps of the plain-error test from Olano not in dispute,
the only questions left for our consideration are whether
the admitted plain error of a conviction on proof of less
than all of the elements of the 922(g) charge affected Nasir’s substantial rights (Olano step three) and whether
we should exercise our discretion to notice the error
(Olano step four). On this record, the answer to both
questions is yes. 29
That is not to say that all post-Rehaif cases should be resolved
in favor of the defendant. Despite the Dissent’s assertions to the
contrary, we are not advocating nor effectively establishing a per se
rule. Each case must be decided on its own facts. For example,
there have been cases where sufficient evidence was presented at
trial to show that the defendant was aware of his status as a felon at
the time of the crime. See, e.g., United States v. Moss, 812 F. App’x
108, 111 (4th Cir. 2020) (rejecting a Rehaif-based challenge because
“[d]uring his direct testimony, [the defendant] stated that he was
well aware of his prohibited status because of his prior convictions.”); United States v. Velázquez-Aponte, 940 F.3d 785, 800 (1st
Cir. 2019) (reciting evidence supporting a § 922(g) conviction after
Rehaif and noting that, at trial, “the government submitted a certified copy of a prior Puerto Rico court judgment reflecting that [the
defendant] was convicted of a felony in state court” at trial and “read
portions of it to the jury,” including the sentence). The Dissent asserts that these cases are “inapposite” because they did not feature
Old Chief stipulations. (Dissent at 11.) But whether there is an
Old Chief stipulation is irrelevant. Old Chief was explicit that it
does not prevent the introduction of evidence of a prior conviction
“for any purpose beyond proving status,” 519 U.S. at 190, so proving
knowledge of status was never forbidden by Old Chief and is expressly sanctioned by Federal Rule of Evidence 404(b), which states
that “[e]vidence of a crime, wrong, or other act is . . . admissible
for . . . proving . . . knowledge[.]” Therefore, as explained
further herein, Old Chief stipulations do not prevent the government
29

46a
a)

Olano step three

To show that an error affected his substantial rights,
Nasir must “ ‘show a reasonable probability that, but for
the error,’ the outcome of the proceeding would have
been different.” 30 Molina-Martinez v. United States,
136 S. Ct. 1338, 1343 (2016) (quoting United States v.
Dominguez Benitez, 542 U.S. 74, 76 (2004)). As to his
sufficiency-of-the-evidence challenge, 31 we ask whether
from introducing knowledge-of-status evidence, as is evident from
their continued use post-Rehaif. The Dissent engages in pure
speculation when it insists that, but for the stipulation in this case,
the government would have introduced such evidence, or that the
trial court would have sustained an objection to it. (See Dissent at
11.)
30
Although we agree with Nasir that his conviction under § 922(g)
was plainly erroneous after Rehaif, we do not agree with his assertion that the error was structural. The Supreme Court has said
that “structural errors are a very limited class of errors[.]” United
States v. Marcus, 560 U.S. 258, 263 (2010) (citation and internal quotation marks omitted). Those circumstances are not present here,
and we are not inclined to extend the structural error doctrine. We
have already said that “[t]rial errors resulting from a failure to submit an element of an offense to the jury are not structural defects,
but instead, are subject to harmless or plain error analysis.”
United States v. Vazquez, 271 F.3d 93, 103 (3d Cir. 2001) (en banc).
That is consistent with the Supreme Court’s decisions in Neder and
Johnson, which held that a judge’s mistake in taking from the jury
the responsibility to determine the existence of an element of the
crime was not structural error. (See supra II.E.1.)
31
Nasir also alleges plain error with respect to the jury instruction
on the elements of a § 922(g) offense, but we need not consider those
arguments, given our disposition of the sufficiency-of-the-evidence
challenge. Failure to instruct the jury as to an element of the crime
is trial error, and “[t]he prosecution therefore is free to retry [the]
defendant.” McMullen v. Tennis, 562 F.3d 231, 237 (3d Cir. 2009);
see also United States v. Cohen, 301 F.3d 152, 158 (3d Cir. 2002)

47a
the evidence the government presented at trial would
have been sufficient to sustain a conviction on the
knowledge-of-status element. Because literally no evidence was presented concerning Nasir’s knowledge of
his status as a felon, it is at least reasonably probable, if
not certain, that the jury would not have found there was
proof beyond a reasonable doubt of the knowledge-ofstatus element, if it had known it was required to consider that element.
The government nevertheless argues that the situation here calls for a different result because the defendant stipulated that he was a felon, pursuant to Old Chief,
519 U.S. 172. According to the government, it was prohibited from giving any further details about Nasir’s
criminal record, so it could not have adduced evidence
that he knew of his status. That argument echoes a
concern raised by Justice Alito in his dissent in Rehaif,
in which he said that, now that the government has to
prove knowledge-of-status, “under . . . [Old Chief], it
is questionable whether a defendant, by offering to stipulate that he has a prior conviction, can prevent the
prosecution from offering evidence about the nature of
that offense. And the admission of that information
may work to a § 922(g) defendant’s detriment.” Rehaif, 139 S. Ct. at 2209 (Alito, J., dissenting). We understand Justice Alito as making the point that discovering a knowledge-of-status element in § 922(g) was potentially inconsistent with the protections the Supreme
Court intended Old Chief to extend to defendants, and

(Alito, J.) (“The usual remedy for an error in a jury instruction is
retrial[.]”).

48a
that inconsistency, Justice Alito indicated, stood as another reason why the Court’s interpretation of § 922(g)
in Rehaif was incorrect.
We do not, however, read anything in Rehaif, or Old
Chief itself, as suggesting that the government could not
have introduced knowledge-of-status evidence at trial.
To the contrary, the Supreme Court was explicit in Old
Chief that its restrictions on evidence concerning the defendant’s previous felony applied “only when the record
of conviction would not be admissible for any purpose
beyond proving status,” so that “if, indeed, there were
a justification for receiving evidence of [the conviction]
on some issue other than status (i.e., to prove . . .
‘knowledge, . . . ’), [then Federal Rule of Evidence]
404(b) [would] guarantee[] the opportunity to seek its
admission.” 519 U.S. at 190 (emphasis added).
Nor did Old Chief preclude adding a simple
knowledge-of-status statement to the stipulations the
government regularly enters with defendants in § 922(g)
cases. By its plain terms, Old Chief only prevents the
government from presenting evidence about the name
or nature of the defendant’s prior felony conviction. A
knowledge-of-status statement included in a stipulation
addresses neither of those things. Indeed, such additional language need not reveal any information about a
defendant’s felonious past, only that he was aware of it
at the time of the offense under consideration. Events
in the real world bear that out. As the Seventh Circuit
has noted, “[i]n the wake of Rehaif, defendants and the
government have begun agreeing to modified Old Chief
stipulations that also include knowledge of felon status.”
Maez, 960 F.3d at 959.

49a
The government also argues that a fair inference, especially on plain-error review, is that Nasir’s acknowledgement of his conviction in the Old Chief stipulation 32
means he also acknowledged he knew of his status as a
felon ever since becoming one. But Rehaif itself blocks
that line of reasoning. 33 The Supreme Court said there
that it did not believe “Congress would have expected
defendants under § 922(g) . . . to know their own status[ ].” Rehaif, 139 S. Ct. at 2197. If one were to conclude otherwise, the Court said, “these provisions might
apply to a person who was convicted of a prior crime but
sentenced only to probation, who does not know that
the crime is ‘punishable by imprisonment for a term
exceeding one year.’ ” Id. at 2198 (quoting 18 U.S.C.
§ 922(g)(1)).
In the natural course, a defendant agrees to an Old
Chief stipulation after having committed the crime of
unlawfully possessing a firearm. Nasir’s stipulation,
for example, post-dates his offense by sixteen months.
All the stipulation demonstrates is that he knew he was
a felon at the time he signed the stipulation; based on
the stipulation alone, it cannot rightly be said that he
32

For the language of the stipulation in its entirety, see supra note

3.
That is not to say that the government’s argument is without
support. See Ward, 957 F.3d at 696 (“A rational juror could also
have inferred that [the defendant] knew he was a felon when he possessed the gun. [He] made an Old Chief stipulation at trial, pursuant to which he acknowledged that he ‘was a convicted felon on and
prior to the date of the charged conduct[.]’ [His] lawyer also told
the jury that [the defendant] was ‘stipulating that he has a felony.
So you can check that one off the box.’ The jury could have inferred
from these statements that [the defendant] also knew that he was a
felon.”).
33

50a
knew of his status as a felon when he possessed the firearms at issue. 34 In other words, a stipulation of the
sort submitted in this case will not, on its own, suffice to
prove that, at the relevant time, the defendant had
knowledge of his status as a person prohibited to possess a firearm. 35
The government tries to get around its lack of evidence by saying that, at trial, it showed Nasir was furtive about his drug dealing and so he must have known
when he possessed his guns that he was a convicted

While the Dissent agrees that the stipulation does not “necessarily prove that [Nasir] knew he was a felon when he was arrested
with the gun[,]” it nonetheless asserts that “[a] thoughtful observer
drawing upon her reason, experience, and common sense might easily infer from Nasir’s June 2017 stipulation that he knew of his felon
status when apprehended with a gun in December 2015.” (Dissent
at 15-16 n.9.) How a thoughtful observer would get to that conclusion at all, let alone easily, can only be explained by going outside
the trial record. On the basis of what is in that record, only an illogical leap could get to that conclusion. Again, Nasir entered into
his Old Chief stipulation long after he was apprehended with the
guns, and he stipulated only that he was a felon; he did not stipulate
to his state of knowledge at the time of the alleged crime. A
thoughtful observer, therefore, would not—indeed could not—
rightly infer knowledge-of-status at the relevant time from the Old
Chief stipulation, either alone or in combination with anything else
the Dissent can point to. There simply is no basis for that inference
in the trial record.
35
The government also argues that, because Nasir agreed to an
Old Chief stipulation, the situation is analogous to one where the defendant invited the error. But that argument is a non-starter since,
under our precedent, the invited-error doctrine does not apply
where the law changes between trial and appeal. United States v.
Andrews, 681 F.3d 509, 517 n.4 (3d Cir. 2012); United States v. West
Indies Transp., Inc., 127 F.3d 299, 305 (3d Cir. 1997).
34

51a
But the inference simply does not follow.
felon. 36
Criminal behavior is nearly always furtive; it’s in the
very nature of the thing. Criminals know enough to
hide their criminality, if they can. Nasir’s furtiveness
proves only that he knew his drug dealing could get him
into trouble, not that he knew he was a previously convicted felon. 37 If the government’s argument were accepted, prosecutors in a typical case involving drugs and
guns could put on no more evidence than was offered before Rehaif and then, by calling the defendant’s behavior furtive, gain a conviction. That would render Rehaif a nullity and is obviously not an option. Rehaif declares knowledge of status to be an element of a § 922(g)
offense, and that cannot be ignored.
The Fourth Circuit has recently come to the same
conclusion. In United States v. Medley, 972 F.3d 399
(4th Cir. 2020), it recognized plain error when the government presented no evidence to sustain a conviction
on the knowledge-of-status element. 38 Id. at 402-03.
Specifically, the government points to “the evidence of subterfuge involving the use of the separate storage facility to store drugs
and drug paraphernalia [and] the fact that he had a secondary vehicle in which he had an arsenal of five semiautomatic firearms.” (En
Banc Oral Argument at 1:03:45-1:04:35; see also App. at 393-94 (trial
testimony describing Nasir’s behavior at the storage facility as involving “frequent visits” to a “small unit” where Nasir “would go inside and come back out”).)
37
The government further argues that the fact Nasir kept his
weapons hidden and locked in the trunk of his car shows he knew he
was prohibited from possessing firearms. If we were to accept that
argument, it might imply that a gun owner who responsibly keeps
his guns safely locked away is somehow admitting his ownership of
them is illicit. We think the inference unwarranted.
38
In Medley, the Fourth Circuit found plain error and prejudice in
the indictment, in the jury instructions, and in the sufficiency of the
36

52a
There too, the government asserted that the defendant’s
Old Chief stipulation was evidence of knowledge-ofstatus, as was his “attempt to evade the police[.]” Id. at
414-15. The court disagreed, noting that “[i]nferring
that someone knew he was prohibited from possessing a
firearm at the time of the offense based on a stipulation
at trial that he was in fact a prohibited person would render the Supreme Court’s language in Rehaif pointless.”
Id. at 414. It also noted that the defendant’s “attempt
to evade the police . . . does not indicate—much less
overwhelmingly prove—that he knew his prohibited status under federal law.” Id. at 415.
As was the Fourth Circuit in Medley, we are faced
here with a case in which there is no evidence at all on
an essential element of the felon-in-possession charge,
and yet the case was submitted to the jury and there was
a conviction. We have said in unmistakable terms that
“affirming a conviction where the government has failed
to prove each essential element of the crime beyond a
reasonable doubt ‘affect[s] substantial rights[.]’ ”
United States v. Gaydos, 108 F.3d 505, 509 (3d Cir. 1997)
(quoting Olano, 507 U.S. at 732) (first alteration in original). That conclusion is “consistent with the Supreme
Court’s instruction that due process requires ‘proof beyond a reasonable doubt of every fact necessary to constitute the crime with which [the defendant] is
charged.’ ” United States v. Xavier, 2 F.3d 1281, 1287
evidence presented at trial. Id. at 419. It then exercised its discretion to recognize the error at step four of plain-error review, in
light of the cumulative effect of those three errors. Id. Rather
than delving into our agreements or disagreements with the majority and dissenting opinions in that case, we note that we certainly
agree with the foundation of the majority’s analytical approach—
that due process and the right to a jury trial are implicated here.

53a
(3d Cir. 1993) (quoting Winship, 397 U.S. at 364.). Nasir’s substantial rights were thus definitely affected by
his conviction upon proof of less than all of the elements
of the offense outlawed by § 922(g), and he has carried
his burden at Olano step three.
b)

Olano step four

The final question, at Olano step four, is whether we
should exercise our discretion to notice the error because it is of a sort that would “seriously affect the fairness, integrity, or public reputation of judicial proceedings.” Olano, 507 U.S. at 736. Given the significant
due process and Sixth Amendment concerns at issue,
which we have already discussed at length, we are convinced that it is indeed that sort of error.
The Supreme Court recently affirmed in RosalesMireles that an error need not “shock the conscience”
or amount to a “powerful indictment of the system” to
be “worthy of correction” at step four of a plain-error
analysis. 138 S. Ct. at 1906-07 (internal quotation
marks omitted). Again, the Court said that “Olano rejected a narrower rule that would have called for relief
only” in cases “where a defendant is actually innocent.”
Id. at 1906. It recognized instead “a broader category
of errors that warrant correction on plain-error review.”
Id. Innocence or guilt, insofar as we may think we apprehend them based on the trial record, may have relevance, but our analysis at the fourth step “focus[es]
. . . on principles of fairness, integrity, and public reputation[.]” Id.
That means that sometimes the errors to be corrected are “inadvertent or unintentional errors of the
court or the parties below.” Id. In Rosales-Mireles,

54a
the error was the District Court’s miscalculation of the
guidelines range at sentencing. Id. at 1905. Such errors had already been recognized as being likely to affect a defendant’s substantial rights, when considered
under the third step of plain-error review. See Molina-Martinez, 136 S. Ct. at 1345 (“When a defendant is
sentenced under an incorrect [g]uidelines range—
whether or not the defendant’s ultimate sentence falls
within the correct range—the error itself can, and most
often will, be sufficient to show a reasonable probability
of a different outcome absent the error.”). The Supreme Court extended that reasoning to Olano step
four, saying that “ ‘[t]o a prisoner,’ th[e] prospect of additional ‘time behind bars is not some theoretical or
mathematical concept’ . . . [and] thus warrants serious consideration in a determination whether to exercise discretion under Rule 52(b).” Rosales-Mireles,
138 S. Ct. at 1907 (quoting Barber v. Thomas, 560 U.S.
474, 504 (2010) (Kennedy, J., dissenting)). The Court
observed that “[i]t is crucial in maintaining public perception of fairness and integrity in the justice system
that courts exhibit regard for fundamental rights and
respect for prisoners as people.” Id. at 1907 (internal
quotation marks omitted).
If a guidelines miscalculation warrants recognition of
plain error, surely a plain error of constitutional dimension going to the conviction itself deserves to be recognized and corrected. 39 Nasir was deprived of the right
We do not suggest, as the Dissent contends, that “plain-error
review is inapplicable whenever important constitutional rights are
at issue.” (Dissent at 8 n.4.) Instead, we faithfully apply our discretion at Olano step four within the confines of the trial record,
evaluating whether the constitutional deprivation at issue seriously
39

55a
to have a jury consider whether the government had
proven him guilty beyond a reasonable doubt on every
element of the § 922(g) charge. As forcefully described
in the concurrence on this point, upholding that outcome
would amount to an appellate court, in the jury’s stead,
“mak[ing] a factual determination on an unproven element of an offense by considering documents outside the
evidentiary record,” in derogation of the Sixth Amendment. (J. Matey Concurrence at 2.) Whether viewed
as a matter of the Fifth Amendment’s guarantee of due
process or the Sixth Amendment’s promise of trial by
jury, or both, a deprivation of those essential rights “seriously impugns ‘the fairness, integrity and public reputation of judicial proceedings[,]’ ” and thus satisfies step

impugns the fairness, integrity, and public reputation of judicial proceedings. By limiting the scope of our review to the trial record, we
decline to act as a factfinder or to do the government’s job for it.
That exercise of judicial restraint does not create a per se rule, nor
does it “challenge[ ] the constitutionality of Rule 52(b)’s plain-error
standard as explicated in Supreme Court decisions[,]” as the Dissent
charges. (Dissent at 9 n.4).) There are cases, as we’ve previously
noted (supra note 29), in which sufficient evidence was presented at
trial to show that a defendant was aware of his status as a felon
at the time of the crime charged. See, e.g., Moss, 812 F. App’x at
111; Velázquez-Aponte, 940 F.3d at 800. Thus, it is not a foregone
conclusion that every defendant convicted before Rehaif under
§ 922(g)—even every such defendant who entered into an Old Chief
stipulation—will succeed on plain error review. Old Chief stipulations do not now prevent, nor have they ever prevented, the government from introducing knowledge-of-status evidence. To the contrary, the government has already begun including knowledge-ofstatus affirmations within Old Chief stipulations. Maez, 960 F.3d
at 959. The variable, therefore, never was the stipulation; it was
the government’s lack of awareness that it had to prove the
knowledge-of-status element.

56a
four of Olano. Gaydos, 108 F.3d at 509 (quoting Olano,
507 U.S. at 732).
That cannot be swept aside because of dissatisfaction
with the rule that plain error is decided on the basis of
the law as it stands at the time of appeal. See Johnson,
520 U.S. at 468 (plainness of a trial error must be judged
“at the time of appellate consideration”). True enough,
the rules of the game changed here, when the decision
in Rehaif came down after the trial. That, however,
does not change our constitutional norms. Members of
the public know that the government is supposed to
prove a defendant’s guilt at trial. Everybody acknowledges that that was not done in this case, though it was
nobody’s “fault.” Were we to ignore that breach of due
process and then try to explain our choice by saying,
“well, we all know he’s guilty,” it should not sit well with
thoughtful members of the public. Nor should our taking over the jury’s role, for the sake of efficiency. Disregarding constitutional norms may be taken as tantamount to saying that rules constraining the government
really don’t count when we just know someone is
guilty. 40 That is a message likely to call into question
Faulting us for adhering firmly to the demands of due process,
the Dissent asserts that “framing the plain error as a due-process
violation does not automatically satisfy Olano prong three or four.”
(Dissent at 5.) We agree. Labels are not what matter; substance
is. To recap, looking at what happened in this case, and considering
Olano prong three, not even our dissenting colleagues try to say that
the government actually offered at trial any evidence of Nasir’s
knowledge of his status as a previously convicted felon. So, again,
there was a complete failure of proof on that essential element of the
§ 922(g) charge, and it ought to be a matter of common understanding that a failure to prove all the elements of an offense does affect
substantial rights, as our past precedent tells us. See United States
40

57a
the fairness, integrity, and reputation of the justice system. We will therefore exercise our discretion to recognize the plain error in Nasir’s § 922(g) conviction.
4.

The Remedy for the Plain Error

We view this case as a misapprehension about the
law—one shared by everyone in the courtroom, and perhaps across the nation, until Rehaif. That misappre-

v. Jones, 471 F.3d 478, 480 (3d Cir. 2006) (“[A]ffirming a conviction
where the government has failed to prove each essential element of
the crime beyond a reasonable doubt affect[s] substantial rights.
. . . ” (internal quotation marks omitted) (second alteration in
original)). So prong three is satisfied here, not because we are
“framing” the government’s failure as one of due process but because it indisputably is a matter of due process, implicating one of
the most fundamental protections afforded to an accused. As for
prong four of Olano, we likewise are not saying that labels carry the
day. We are focused on the fundamental right, enshrined in the
Due Process Clause, that no one will be deprived of liberty without
the government carrying its burden to prove guilt beyond a reasonable doubt. When that is at issue, as it is here, we believe it does
bring the judicial process into disrepute to ignore what the Constitution requires. See id. (“[A]ffirming a conviction where the government has failed to prove each essential element of the crime beyond a reasonable doubt . . . seriously impugns the fairness, integrity and public reputation of judicial proceedings.” (internal
quotation marks omitted)). We are not asking for anything to be
“automatic” but are taking this case on its facts, as the government
and the defendant developed those facts at trial. That, we believe,
is what the Supreme Court meant when it said in Puckett v. United
States that “the fourth prong [of Olano] is meant to be applied on a
case-specific and fact-intensive basis.” 556 U.S. 129, 142 (2009).
By contrast, the Dissent does seem to have an automatic approach:
invoking Olano automatically makes every constitutional protection
a matter of pure discretion, for judges to ignore if they choose.

58a
hension led to the government’s failure to present sufficient evidence to sustain the conviction. 41 Though a
failure of proof usually results in acquittal, the Double
Jeopardy Clause is not implicated when the law has
changed on appeal. 42 Retrial is thus allowed and warranted. We will therefore vacate Nasir’s conviction on
the § 922(g) count of the indictment, and we will remand
for a new trial on that charge, at the government’s discretion.
III.

CONCLUSION

The frustration of diligent prosecutors in this case is
to be expected and is fully justified. They did not know
they had to, and hence did not, present evidence to the
jury to prove that the defendant knew he was a felon
when he possessed a firearm. Likewise, the burden on
the busy District Court is regrettable, since it too was
See supra note 31.
See, e.g., United States v. Ford, 703 F.3d 708, 711-12 (4th Cir.
2013) (granting a new trial where “the evidence presented at trial
has been rendered insufficient only by a post-trial change in law
. . . [and] was therefore akin to a reversal for trial error, [so] retrial
did not run afoul of the Double Jeopardy Clause.” (internal quotation marks and citations omitted)); United States v. Wacker, 72 F.3d
1453, 1465 (10th Cir. 1995) (“Moreover, the government here cannot
be held responsible for ‘failing to muster’ evidence sufficient to satisfy a standard which did not exist at the time of trial.” (citation
omitted)); United States v. Weems, 49 F.3d 528, 531 (9th Cir. 1995)
(holding that “double jeopardy protections do not bar retrial” when
“[t]he government had no reason to introduce such evidence because, at the time of trial, under the law of our circuit, the government was not required to prove” that element); see also Rehaif, 139
S. Ct. at 2201 (Alito, J., dissenting) (noting that, following the majority’s decision, “[a] great many convictions will be subject to challenge, threatening the release or retrial of dangerous individuals
whose cases fall outside the bounds of harmless-error review.”).
41
42

59a
operating on the then-widely shared understanding of
the elements of a § 922(g) offense. Nevertheless, “[t]he
prosecution’s failure to prove an essential element of the
charged offense [is] plain error [and] . . . a miscarriage of justice.” United States v. Castro, 704 F.3d 125,
138 (3d Cir. 2013) (citations omitted).
In sum, we will affirm Nasir’s conviction under the
crack house statute and for possession with intent to distribute marijuana. We will vacate his sentence, as it
was based on the application of the career offender enhancement that we have here concluded should not be
applied, and we will vacate his conviction as a felon in
possession of a firearm. Accordingly, we will remand
for a new trial on that charge and for resentencing.

60a
BIBAS, Circuit Judge, concurring in part.
Judges interpret the law. That applies to the U.S.
Sentencing Guidelines too. If the Sentencing Commission’s commentary sweeps more broadly than the plain
language of the guideline it interprets, we must not reflexively defer. The judge’s lodestar must remain the
law’s text, not what the Commission says about that
text.
So too here. The plain text of the Guidelines’ careeroffender enhancement does not include inchoate crimes.
The commentary says that it does. The majority rightly
rejects this extra-textual invitation to expand a serious
sentencing enhancement, and I join Part II.D of its opinion.
But the narrow scope of today’s holding hints at a
broader problem. For decades, we and every other circuit have followed the Supreme Court’s guidance in
Stinson. That meant we gave nearly dispositive weight
to the Sentencing Commission’s commentary, not the
Guidelines’ plain text. 508 U.S. at 44-46; see also, e.g.,
United States v. Keller, 666 F.3d 103, 108-09 (3d Cir.
2011); United States v. Boggi, 74 F.3d 470, 474-75 (3d
Cir. 1996).
Now the winds have changed. In Kisor, the Supreme
Court awoke us from our slumber of reflexive deference:
agency interpretations might merit deference, but only
when the text of a regulation is truly ambiguous. Before deferring, we must first exhaust our traditional
tools of statutory construction. Anything less is too
narrow a view of the judicial role.
We must look at things afresh. Old precedents that
turned to the commentary rather than the text no longer

61a
hold. See Hassen v. Gov’t of the V.I., 861 F.3d 108, 114
n.5 (3d Cir. 2017) (noting that we may revisit our precedents when they conflict with intervening Supreme
Court precedent). Tools of statutory interpretation
have thus been thrust to the fore. And one tool among
many stands out as well suited to the task: the rule of
lenity. As we rework our Sentencing Guidelines cases,
lenity is the tool for the job.
I.

THE RULE OF LENITY ’ S VIRTUES

As Chief Justice Marshall explained, the rule of lenity is venerable. “The rule that penal laws are to be
construed strictly, is perhaps not much less old than
construction itself.” United States v. Wiltberger, 18
U.S. (5 Wheat.) 76, 95 (1820). It first arose to mitigate
draconian sentences. As English statutes kept expanding the death penalty and curtailing mercy, courts
tempered them by construing them narrowly. Livingston Hall, Strict or Liberal Construction of Penal Statutes, 48 Harv. L. Rev. 748, 749-51 (1935). The canon
was well established by the time of Blackstone. 1 William Blackstone, Commentaries *88. And it took root
in our law soon thereafter. Wiltberger, 18 U.S. (5
Wheat.) at 95.
Under the rule of lenity, courts must construe penal
laws strictly and resolve ambiguities in favor of the defendant. See, e.g., Liparota v. United States, 471 U.S.
419, 427 (1985); see also Antonin Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts
296 (2012). The touchstone is the text: the “ordinary,” evidently intended meaning of “the words of the
statute.” Wiltberger, 18 U.S. (5 Wheat.) at 95.

62a
The rule of lenity serves three core values of the Republic. First, it is entwined with notice and thus due
process. See McBoyle v. United States, 283 U.S. 25, 27
(1931) (Holmes, J.); United States v. R.L.C., 503 U.S.
291, 309 (1992) (Scalia, J., concurring). It gives citizens
fair warning of what conduct is illegal, ensuring that ambiguous statutes do not reach beyond their clear scope.
Second is the separation of powers. As Chief Justice Marshall explained, the rule of lenity stems from
“the plain principle that the power of punishment is
vested in the legislative, not in the judicial department.
It is the legislature, not the Court, which is to define a
crime, and ordain its punishment.” Wiltberger, 18 U.S.
(5 Wheat.) at 95. If Congress wants to criminalize certain conduct or set certain penalties, it must do so
clearly.
And third but perhaps most importantly, the rule of
lenity serves our nation’s strong preference for liberty.
As Judge Henry Friendly explained, lenity expresses
our “instinctive distaste against men languishing in prison
unless the lawmaker has clearly said they should.”
Henry J. Friendly, Mr. Justice Frankfurter and the
Reading of Statutes, in Benchmarks 196, 209 (1967).
That approach fits with one of the core purposes of our
Constitution, to “secure the Blessings of Liberty” for all
citizens. U.S. Const. pmbl. Penal laws pose the most
severe threats to life and liberty, as the Government
seeks to brand people as criminals and lock them away.
To guard against those threats, the rule of lenity favors
respect for individual rights. Wiltberger, 18 U.S. (5
Wheat.) at 95. Together with the Double Jeopardy and
Cruel and Unusual Punishments Clauses, lenity is a
longstanding safeguard against excessive punishment.

63a
John F. Stinneford, Dividing Crime, Multiplying Punishments, 48 U.C. Davis L. Rev. 1955, 1982-2001 (2015).
II. LENITY, SENTENCING, AND KISOR

An agency’s reading of its own regulation used to be
almost dispositive. That applied equally to the U.S.
Sentencing Commission and its commentary. Stinson,
508 U.S. at 44-46. But no more. Now, before a court
defers to an agency interpretation, first it “must exhaust
all the ‘traditional tools’ of construction.” Kisor, 139 S.
Ct. at 2415 (quoting Chevron USA Inc. v. NRDC, 467
U.S. 837, 843 n.9 (1984)). “[O]nly when that legal
toolkit is empty and the interpretive question still has
no single right answer” may we give Auer deference to
an agency’s reading of its own rule. Id.; see Auer v.
Robbins, 519 U.S. 452, 461 (1997).
A key tool in that judicial toolkit is the rule of lenity.
Rather than defer to the commentary, we should use lenity to interpret ambiguous Guidelines. Even though the
Guidelines are advisory, they exert a law-like gravitational pull on sentences. See United States v. Booker,
543 U.S. 220, 265 (2005) (Breyer, J., remedial majority
opinion); Peugh v. United States, 569 U.S. 530, 543-44
(2013); U.S. Sentencing Comm’n, 2019 Annual Report
and Sourcebook of Federal Sentencing Statistics 8 (reporting that last year, 75% of offenders received sentences that were either within the Guidelines range or
justified by a Guidelines ground for departure). So
courts must still attend to the rule and its animating
principles.
Lenity’s third, key purpose applies here. True, one
can debate the relevance of its first two purposes:
whether the commentary gives enough notice and

64a
whether congressional approval of guidelines with their
commentary respects the separation of powers. Compare Mistretta v. United States, 488 U.S. 361, 380-411
(1989), with id. at 422-27 (Scalia, J., dissenting). But in
any event, the presumption of liberty remains crucial to
guarding against overpunishment. When a guideline is
ambiguous, the rule of lenity calls for adopting the more
lenient of two plausible readings. It helps ensure that
“criminal punishment . . .
represents the moral
condemnation of the community.” United States v.
Bass, 404 U.S. 336, 348 (1971).
There is no compelling reason to defer to a Guidelines
comment that is harsher than the text. Whatever the
virtues of giving experts flexibility to adapt rules to
changing circumstances in civil cases, in criminal justice
those virtues cannot outweigh life and liberty. Efficiency and expertise do not trump justice. Though expertise improves things for the future, sentencing requires justice tethered to the past. The rule of lenity
takes precedence as a shield against excessive punishment and stigma.
That does not mean that lenity displaces all commentary. Only when a comment to an otherwise ambiguous
guideline has a clear tilt toward harshness will lenity
tame it. Some provisions may have no consistent tilt
across all defendants. If so, Auer deference might still
apply.
Here, however, the guideline’s plain text does not include inchoate offenses. The commentary says it does,
making it harsher. So we rightly refuse to defer.
*

*

*

*

*

65a
Courts play a vital role in safeguarding liberty and
checking punishment. That includes reading the Sentencing Guidelines. Some provisions are ambiguous.
But as Kisor teaches, instead of deferring to the commentary the moment ambiguity arises, judges must first
exhaust our legal toolkit. This will require work; our
old precedents relying strictly on the commentary no
longer bind. In undertaking this task, we must not forget the rule of lenity.

66a
MATEY, Circuit Judge, concurring.
I concur in the majority opinion in full and write separately as to Part II.E.
Start with this question: how many people serving
on a jury in the United States know exactly what it
means to be “a felon?” Most, we can guess, know that
a felon has run into some trouble with the law. Others,
that the person has been convicted of a crime. A particularly serious crime, at least some might say. But
how many of the twelve would know the precise definition used by Congress in 18 U.S.C. § 922(g)(1), someone
“who has been convicted in any court of, a crime punishable by imprisonment for a term exceeding one year”?
No matter, of course. The government will explain it
all as it proves the elements of § 922(g). And along the
way, a few jurors will be surprised to learn that a felony
is a very particular kind of crime. That despite countless depictions in culture, both popular and timeless, a
“felon” is not just a “villain.” See, e.g., Felon, Webster’s Third New International Dictionary 836 (1993).
Now ask a harder question: if at least some of those
jurors need the arguments of a lawyer to get to the right
meaning of “felon,” then will they all, unanimously and
inevitably, conclude that the defendant knew it, too?
Perhaps the government’s evidence does not add up.
Recollections fade, records fail to materialize, witnesses
flounder. Might not the defendant’s attorney find a
chance to sow doubt?
Then, end with the most challenging question: what
if those jurors never heard any evidence that the defendant knew he met the exacting definition of “felon”
in § 922(g)? That is the issue before us today, an issue

67a
that has in recent years appeared throughout the federal courts. And I believe it requires us to properly
frame the question presented. On the one hand, we can
view the issue as whether the fourth prong of Olano’s
standard of review for plain error should allow an appellate court to “look outside the record” to find proof of
guilt that would affirm an otherwise invalid conviction.
On the other hand, we can ask whether the Sixth
Amendment as originally understood includes an exception to the guarantee that an impartial jury determines
a defendant’s guilt. An exception that allows appellate
courts to independently find an element of an offense
proven beyond a reasonable doubt, using proof never
presented to the jury.
It is an important distinction because when confronted with a novel question of constitutional law, that
is, one not directly controlled by precedent, we should
ask if the original understanding of the Constitution tolerates a certain result. No court, it appears, has considered whether the Sixth Amendment, as originally understood, allows judges to make a factual determination
on an unproven element of an offense by considering
documents outside the evidentiary record. Applying
that test, I have sufficient doubt that the scope of judicial authority imagined by the Framers reaches past the
horizon of the Sixth Amendment’s guarantee. And I do
not read Olano, as best understood in light of the history
of the plain error doctrine, to allow for a result contrary
to the original understanding of the Sixth Amendment.
For those reasons, as I explain below, I concur. 1

This distinction—whether precedent already answers the question
—accounts for the outcome in United States v. Jabateh, where the
1

68a
I.
A.

THE SIXTH AMENDMENT

The Original Understanding of the Right to a Jury
Trial

“Only a jury, acting on proof beyond a reasonable
doubt, may take a person’s liberty. That promise
stands as one of the Constitution’s most vital protections
against arbitrary government.” United States v. Haymond, 139 S. Ct. 2369, 2373 (2019). Ever distrustful of
authority, the first generation of Americans skeptically
—and belatedly—agreed to sturdier national power as
long as certain stipulations bound their new government. Among them, the guarantee that criminal guilt
is determined only by an “impartial jury.” U.S. Const.
amend. VI. Hardly an American innovation, this “ancient rule,” Haymond, 139 S. Ct. at 2376, between free
persons and their governments has “extend[ed] down
centuries,” Apprendi v. New Jersey, 530 U.S. 466, 477
(2000). 2 Indeed, “[a]s Blackstone explained, no person
panel held that prior decisions precluded application of the plain error rule. See 974 F.3d 281, 298-300 (3d Cir. 2020).
2
For examples of this history, begin with the outrages that drove
the Stamp Act Congress of 1765 to pronounce that “trial by jury is
the inherent and invaluable right of every British subject in these
colonies.” Resolutions of the Stamp Act Congress § 7 (1765) reprinted in Select Charters and Other Documents Illustrative of
American History 1606-1775, 315 (William McDonald ed., 1906); see
also “To Benjamin Franklin from Charles Thomson, Sept. 24, 1765,”
Founders Online, National Archives, https://founders.archives.gov/
documents/Franklin/01-12-02-0149 (“It is not property only we contend for. Our Liberty and most essential privileges are struck at:
Arbitrary courts are set over us, and trials by juries taken away.”);
and see “To Benjamin Franklin from Thomas Wharton, June 24,
1765,” Founders Online, National Archives, https://founders.archives.
gov/documents/Franklin/01-12-02-0091 (objecting to a single judge
deciding what was “heretofore only to be Assertained by a trial by

69a

Jury; and thereby depriving Us, of one of the most Essential priviledges of An Englishman.”). This “essential privilege” enjoyed by
the colonists “by the immutable laws of nature” included entitlement
“to the common law of England, and more especially to the great and
inestimable privilege of being tried by their peers of the vicinage,
according to the course of that law.” Declaration and Resolves of
the First Continental Congress Resolution 5 (1774), available at
https://avalon.law.yale.edu/18thcentury/resolves.asp; see also Declaration and Resolves of the First Continental Congress (noting that
Britain passed “several acts” which “deprive the American subject
of trial by jury” and “deprive[] the American subject of a constitutional trial by jury of the vicinage”). As the evidence for independence mounted, the right to jury trial emerged as profound motivation for the colonies to join in revolt. “IV. The Declaration as
Adopted by Congress, [6 July 1775],” Founders Online, National Archives, https://founders.archives.gov/documents/Jefferson/01-01-020113-0005 (“Statutes have been passed . . . for depriving us of
the accustomed and inestimable Privilege of Trial by Jury in Cases
affecting both Life and Property”). It would become a cornerstone
of a “new Government,” one of the foundational principles “most
likely to effect . . . Safety and Happiness.” The Declaration of
Independence ¶ 1, 19 (1776) (“For depriving us in many cases, of the
benefits of Trial by Jury”).
With freedom won, the future of the right to trial by jury became
a central cause for supporters and opponents of the Constitution.
Writing as Phocion to persuade New York to ratify, Alexander
Hamilton urged, “Let us not forget that the constitution declares
that trial by jury in all cases in which it has been formerly used,
should remain inviolate forever[].” Second Letter from Phocion,
[Apr. 1784], Founders Online, National Archives, https://founders.
archives.gov/documents/Hamilton/01-03-02-0347. Fearing a loss of
the jury stirred Anti-Federalist Patrick Henry to exclaim: “Why
do we love this trial by jury? Because it prevents the hand of oppression cutting you off.” 3 Debates on the Adoption of the Federal
Constitution 545 (Philadelphia, Jonathan Elliot ed., 1836) (1787)
(statement of Patrick Henry)); see also Nathaniel Breading, Edmund Randolph, and Samuel Bryan, Observations on the Proposed
Constitution for the United States of America 23, 1788 (“We abhor

70a
could be found guilty of a serious crime unless ‘the truth
of every accusation . . . should . . . be confirmed
by the unanimous suffrage of twelve of his equals and
neighbors, indifferently chosen, and superior to all suspicion.’ ” Ramos v. Louisiana, 140 S. Ct. 1390, 1395
(2020) (citing 4 W. Blackstone, Commentaries on the
Laws of England *343 (1769)). And so the Constitution’s jury trial guarantee “reflect[s] a fundamental decision about the exercise of official power—a reluctance
to entrust plenary powers over the life and liberty of the
citizen to one judge or to a group of judges.” Duncan
v. Louisiana, 391 U.S. 145, 156 (1968). It is a belief
the idea of losing the transcendent privilege of trial by jury.”). Indeed, “[t]he friends and adversaries of the plan of the Convention, if
they agree in nothing else, concur at least in the value they set upon
the trial by jury; or if there is any difference between them it consists in this: the former regard it as a valuable safeguard to liberty;
the latter represent it as the very palladium of free government.”
Alexander Hamilton, The Federalist No. 83. And so the Anti-Federalists campaigned vigorously to formally recognize the right to
jury trial as “essential in every free country, that common people
should have a part and share of influence, in the judicial as well as in
the legislative department.” Letters From The Federal Farmer
(IV), in 2 The Complete Anti-Federalist 249 (Herbert J. Storing ed.,
1981); see also Letters From The Federal Farmer (XV), in 2 The
Complete Anti-Federalist 320 (Herbert J. Storing ed., 1981) (“Juries
are constantly and frequently drawn from the body of the people,
and freemen of the country; and by holding the jury’s right to return
a general verdict in all cases sacred, we secure to the people at large,
their just and rightful controul in the judicial department.”). As
summed up by Thomas Jefferson, “[a]nother apprehension is that a
majority cannot be induced to adopt the trial by jury; and I consider
that as the only anchor, ever yet imagined by man, by which a government can be held to the principles of its constitution.” “From
Thomas Jefferson to Thomas Paine, 11 July 1789,” Founders Online,
National Archives, https://founders.archives.gov/ documents/Jefferson/
01-15-02-0259.

71a
that Blackstone called “the grand bulwark of . . .
libert[y].” 4 W. Blackstone, Commentaries *349.
The Sixth Amendment provides, “as its most important element, the right to have the jury, rather than
the judge, reach the requisite finding of ‘guilty.’ ” Sullivan v. Louisiana, 508 U.S. 275, 277 (1993) (citing Sparf
v. United States, 156 U.S. 51, 105-06 (1895)). From this
flows the “unmistakable” condition that a “jury must
reach a unanimous verdict in order to convict.” See
Ramos, 140 S. Ct. at 1395. And for a jury to be unanimous, the Fifth Amendment requires a unanimous finding of guilt on “all elements” of the charged offense.
Sullivan, 508 U.S. at 277-78. “Together, these pillars
of the Bill of Rights,” Haymond, 139 S. Ct. at 2376, ensure that “[t]he Constitution gives a criminal defendant
the right to have a jury determine, beyond a reasonable
doubt, his guilt of every element of the crime with which
he is charged.” United States v. Gaudin, 515 U.S. 506,
522-23 (1995) (emphasis added). It is, in short, a bedrock precept that remains unmoved by the perpetual
current that otherwise defines our Republic.
B.

Judicial Interpretations of the Jury Trial Right

As Justice Scalia so aptly analogized, “[w]hen this
Court deals with the content of th[e] [right to jury]
guarantee—the only one to appear in both the body of
the Constitution and the Bill of Rights—it is operating
upon the spinal column of American democracy.”
Neder v. United States, 527 U.S. 1, 30 (1999) (Scalia, J.,
concurring in part and dissenting in part). Indeed, “together with the right to vote, those who wrote our Constitution considered the right to trial by jury ‘the heart
and lungs’
. . . of our liberties, without which ‘the
body must die.’ ” Haymond, 139 S. Ct. at 2375 (quoting

72a
Letter from Clarendon to W. Pym (Jan. 27, 1766), in 1
Papers of John Adams 169 (R. Taylor ed. 1977)). Complex surgery on one part of the body, however, can throw
another part out of alignment. Similar consequences
often follow judicial interpretations of our constitutional
guarantees. For instance, consider a defendant on
trial for murder. The jury finds him not guilty. But
the prosecution remains convinced the jury got it wrong.
It brought forth a mountain of evidence that proved
guilt beyond a reasonable doubt and wants to appeal.
Unlike a group of laypersons, a panel of jurists, far more
learned and wiser, will unquestionably find for the prosecution. Can the government appeal? Of course not,
any first-year law student will answer, because of the
Double Jeopardy Clause of the Fifth Amendment.
Now suppose the defendant is tried for first-degree
murder. The defendant acknowledges he is the killer,
but the jury finds that he did not act with malice aforethought, and returns a not guilty verdict. Wait, argues
the government, all the elements for an uncharged
lesser crime are found in the record. So the prosecution appeals and asks those same wise judges to simply
find the defendant guilty of another crime. No again,
answers the student. Or perhaps the jury just can’t decide one way or another. Nine say that he definitely
did it; three say that there’s no way. Like a low inside
curve, can a judge make the call that decides the matter?
No, because the jury verdict must be unanimous, a point
recently steadied by the Supreme Court. Ramos, 140
S. Ct. at 1395.
What about a defendant acquitted over an “erroneous
addition of a statutory element”? Evans v. Michigan,
568 U.S. 313, 316 (2013) (emphasis added). Can the

73a
government appeal? No, because “our cases have defined an acquittal to encompass any ruling that the prosecution’s proof is insufficient to establish criminal liability for an offense,” even if that purported insufficiency
turns on an extraneous element of the offense. Id. at
318. Indeed, an acquittal must stand even if “predicated upon a clear misunderstanding of what facts the
[prosecution] needed to prove under [governing] law,”
without regard to “whether the court’s decision flowed
from an incorrect antecedent ruling of law,” and even
when “the product of an erroneous interpretation of governing legal principles.” Id. at 320 (internal quotation
marks omitted).
Try another: suppose after the defendant is convicted it becomes clear that the prosecution charged and
proved less than every essential element of the offense.
No problem, says the government, most of the elements
were proven. And a guilty verdict that “omits an element of the offense,” the Supreme Court has concluded,
“does not necessarily render a criminal trial fundamentally unfair.” Neder, 527 U.S. at 9. After all, it would
be awfully burdensome to retry the case just to prove
what everyone seemingly already knows.
But this time, the government notes, there’s a catch:
there is no evidence in the record that could prove the
missing element. There is other reliable proof, however, outside the trial record that establishes the unproven portion of the crime. 3 Can a court consider this
Perhaps, for example, the evidence was suppressed. Or the
parties stipulated to bar its introduction. Maybe the prosecution did
not choose to offer the evidence. Maybe none of the parties, or the
court, thought the evidence was relevant. Whatever the reason,
the result is the same: the jury never saw it.
3

74a
material—information everyone agrees the jury never
saw—and then find the defendant guilty beyond a reasonable doubt? Well, the answer is complex. In the
past, tests have weighed cardinal constitutional guarantees against judicial efficiency and the chance of success
on retrial. See id. at 15 (“We do not think the Sixth
Amendment requires us to veer away from settled precedent” to grant “[r]eversal without any consideration of
the effect of the error upon the verdict[.]”). More recently, the Supreme Court recoiled at even the suggestion of such a balancing test. See Ramos, 140 S. Ct. at
1402 (“When the American people chose to enshrine [the
Sixth Amendment] in the Constitution, they weren’t
suggesting fruitful topics for future cost-benefit analysis.”). All of which brings us to Malik Nasir.
II.

THE DOCTRINE OF PLAIN ERROR REVIEW

There is no disagreement about the road leading to
this case. In Rehaif v. United States, the Supreme
Court held “that the Government must prove that a defendant charged with violating [18 U.S.C.] § 922(g) knew
both that he possessed a firearm and that he belonged
to the relevant class of persons barred from possessing
a firearm.” In re Sampson, 954 F.3d 159, 161 (3d Cir.
2019) (per curiam) (citing Rehaif v. United States, 139
S. Ct. 2191, 2200 (2019)). But Nasir’s indictment did

75a
not allege, 4 and the Government did not prove, that Nasir knew about his prohibited status. 5 Those errors are
unsurprising since, before Rehaif, “every single Court
of Appeals” relied on the same “long-established interpretation” attributed to 18 U.S.C. § 922(g) “in thousands
of cases for more than 30 years.” Rehaif, 139 S. Ct. at
2201 (Alito, J., dissenting). But it was still erroneous
and, since Rehaif arrived while Nasir’s direct appeal remained pending, “we apply [Rehaif] retroactively.”
Johnson v. United States, 520 U.S. 461, 467 (1997).
That, one might assume, is the end of the story. Since
the jury did not decide a necessary element of § 922(g),
Nasir could not have received the guarantees of the
Fifth and Sixth Amendments as originally understood.
See Sullivan, 508 U.S. at 277-78. Not so, owing to the
ever-expanding discretion afforded courts under the
plain error doctrine. See, e.g., United States v. Maez,
960 F.3d 949, 956 (7th Cir. 2020) (explaining that under

Count Three of the indictment charged that Nasir “did knowingly
possess in and affecting interstate and foreign commerce, firearms
. . . after having been convicted of a crime punishable by imprisonment for a term exceeding one year, in the United States District
Court for the Eastern District of Virginia, in violation of Title 18,
United States Code, Sections 922(g)(1) and 924(a)(2).” (App. at 4041.)
5
The District Court instructed the jury that “in order to find the
defendant guilty of [18 U.S.C. § 922(g)], you must find that the government proved each of the following three elements beyond a reasonable doubt: First, that the defendant has been convicted of a
felony, that is, a crime punishable by imprisonment for a term exceeding one year; Second, that after this conviction, the defendant
knowingly possessed the firearm described in Count Three of the
Indictment; and Third, that the defendant’s possession was in or affecting interstate or foreign commerce.” (App. at 615-16.)
4

76a
Johnson, courts are to apply plain-error review to
changes in constitutional law after conviction). 6
A.

The Original Understanding of Plain Error Review

The current authority of a federal appellate court to
notice unpreserved error grew from the early practices
of the Supreme Court. By the late nineteenth century,
the Court’s general rule confining review “to a discussion of the errors stated” still permitted the Court, “at
its discretion, [to] notice any other errors appearing in
the record.” 78 U.S. (11 Wall.) x (1871) (adopting Sup.
Ct. R. 21 (amended 81 U.S. (14 Wall.) xi, xii (1872), repealed 1939)). In 1874, the Court cabined that discretion and coined the now familiar “plain error” doctrine.
See Sup. Ct. R. 21 § 8, 16 (1874) (“Without such an assignment of errors, counsel will not be heard, except at
the request of the court, and errors not assigned according to this rule will be disregarded, though the court, at
its option, may notice a plain error not assigned.”); see
O’Neil v. Vermont, 144 U.S. 323, 365 (1892) (Field, J.,
dissenting) (explaining “[t]he right of the court to consider [an] alleged error of its own motion is within its
authority under the [plain error] rule”). As Justice
Field explained, the plain error rule focused on mistakes
“affecting the liberty of the citizen.” Id. at 360.
Using that authority, the Court applied the plain error rule to invalidate a constitutionally infirm conviction. Wiborg v. United States, 163 U.S. 632, 658 (1896).
But see Rehaif, 139 S. Ct. at 2201, 2213 (Alito, J., dissenting) (“A
great many convictions will be subject to challenge, threatening the
release or retrial of dangerous individuals whose cases fall outside
the bounds of harmless-error review,” and “[t]hose for whom direct
review has not ended will likely be entitled to a new trial.” (emphasis added)).
6

77a
In Wiborg, the Court spoke of the judicial “liberty” to
review questions “not properly raised” if “a plain error
was committed in a matter so absolutely vital to defendants.” Id. The Court reaffirmed that perspective in
Clyatt v. United States, holding that Wiborg “justifies
us in examining the question in case a plain error has
been committed in a matter so vital to the defendant.”
197 U.S. 207, 221-22 (1905). See also Crawford v.
United States, 212 U.S. 183, 194 (1909) (“[Courts] will,
in the exercise of a sound discretion, sometimes notice
error in the trial of a criminal case, although the question was not properly raised at the trial by objection and
exception.”); Brasfield v. United States, 272 U.S. 448,
450 (1926) (“[F]ailure of petitioners’ counsel to particularize an exception to the court’s inquiry does not preclude this Court from correcting the error.”). And this
focus on issues “vital” to the defendant flows directly
from the guarantees of the Constitution. Those commitments make the plain error rule “not a rigid one,”
and courts have had “less reluctance to act under it when
rights are asserted which are of such high character as
to find expression and sanction in the Constitution or
Bill of Rights.” Weems v. United States, 217 U.S. 349,
362 (1910). The plain error rule, as first applied by the
Supreme Court, recognizes “[t]he right of trial by Jury
is a fundamental law, made sacred by the Constitution,”
and enjoyed by all persons before the Founding.
Vanhorne’s Lessee v. Dorrance, 2 Dall. 304, 309 (Patterson, Circuit Justice, C.C.D. Pa. 1795) (discussing the
language of the 1790 Constitution of the Commonwealth
of Pennsylvania mirroring the Sixth Amendment).
Jury trials are a firewall against a process that would
devalue natural rights, unsuitable for sacrifice on the altar of efficiency.

78a
But though conceived as a reminder of the highest
principles of ordered liberty, the plain error doctrine
pivoted in United States v. Atkinson, 297 U.S. 157
(1936). Departing from its prior focus on “vital” errors
impacting foundational rights, Atkinson turned to concerns about the integrity of judicial proceedings. This
new theory of plain error produced an oft-cited principle: “In exceptional circumstances, especially in criminal cases, appellate courts, in the public interest, may,
of their own motion, notice errors to which no exception
has been taken, if the errors are obvious, or if they otherwise seriously affect the fairness, integrity, or public
reputation of judicial proceedings.” Id. at 160.
B.

The Text of Rule 52(b)

The turn did not take. Rule 52(b) codified the plain
error doctrine in 1944, choosing fundamental rights over
structural anxieties by shedding the baggage of Atkinson in favor of a straightforward definition: “[a] plain
error that affects substantial rights may be considered
even though it was not brought to the court’s attention.”
Fed. R. Crim. P. 52(b). It is, of course, “the text of the
Rule that controls.” Krupski v. Costa Crociere S.p.A.,
560 U.S. 538, 557 (2010) (Scalia, J., concurring in part).
Rule 52(b) limits the power to notice unpreserved errors
to only those affecting “substantial rights.” That language traces straight back to Wiborg. See, e.g., Storgard v. France & Canada S.S. Corp., 263 F. 545, 546 (2d
Cir. 1920) (“[A]ppellate courts may consider plain errors, not excepted to nor assigned, though this is rarely
done except in criminal cases” that impact “substantial
rights.”) (citing Oppenheim v. United States, 241 F.
625, 628 (2d Cir. 1917) (citing Wiborg and Crawford));
McCormick v. United States, 9 F.2d 237, 240 (8th Cir.

79a
1925) (“The substantial rights of defendants in criminal
cases have always been amply protected.
. . .
[W]here plain error has been committed in a matter vital
to defendants, . . . it is considered.”) (citing Wiborg). Against that backdrop, there is little reason to
conclude that Rule 52(b) disregarded the traditional
meaning of the plain error rule. See Antonin Scalia &
Bryan Garner, Reading Law: The Interpretation of
Legal Texts 318 (2012) (explaining the canon of interpretation that “statutes will not be interpreted as changing the common law unless they effect the change with
clarity”).
And while “not authoritative,” Black v.
United States, 561 U.S. 465, 475 (2010) (Scalia, J., concurring in part and concurring in the judgment), the
commentary provided by the Advisory Committee confirms that is the best reading of the rule. See Fed. R.
Crim. P. 52 advisory committee’s note to subsection (b)
(“Th[e] [plain error] rule is a restatement of existing
law[.]”) (citing Wiborg, 163 U.S. at 658); see also
Krupski, 560 U.S. at 557 (Scalia, J., concurring in part
and concurring in the judgment) (“The Advisory Committee’s insights into the proper interpretation of a
Rule’s text are useful to the same extent as any scholarly
commentary.”).
C.

The Olano Framework

Despite all of this, the Court would later state that
“the ‘standard laid down in United States v. Atkinson
[was] codified in [Rule] 52(b).’ ”
United States v.
Olano, 507 U.S. 725, 736 (1993). Olano provides a fourpronged inquiry that remains our standard today.
Courts may provide remedies under Rule 52(b) only if
(1) there is an “error[,]” (2) the error is “plain[,]” and (3)
the plain error “affect[s] substantial rights.” Id. at

80a
732-34; see also Johnson, 520 U.S. at 466-67 (1997).
Satisfying all three prongs creates discretion to (4) “correct a plain forfeited error affecting substantial rights if
the error ‘seriously affect[s] the fairness, integrity or
public reputation of judicial proceedings.’ ” Olano, 507
U.S. at 736 (citing Atkinson, 297 U.S. at 160). So now,
“a plain error affecting substantial rights does not, without more, satisfy the Atkinson standard, for otherwise
the discretion afforded by Rule 52(b) would be illusory.”
Id. at 736-37.
Recent applications of Rule 52(b) have focused on its
discretionary character. See Johnson, 520 U.S. at 46970 (“When the first three parts of Olano are satisfied, an
appellate court must then determine whether the forfeited error ‘seriously affect[s] the fairness, integrity or
public reputation of judicial proceedings’ before it may
exercise its discretion to correct the error.”) (citing
Olano, 507 U.S. at 736). These cases make clear that
any “per se approach to plain-error review is flawed,”
United States v. Young, 470 U.S. 1, 16 n.14 (1985), because “[t]he fourth prong is meant to be applied on a
case-specific and fact-intensive basis.”
Puckett v.
United States, 556 U.S. 129, 142 (2009). That, of course,
is nothing new, as the original application of plain error
always assumed searching scrutiny. See Weems, 217
U.S. at 362; Crawford, 212 U.S. at 194; Clyatt, 197 U.S.
at 221-22; Wiborg, 163 U.S. at 658. But the Court expressly tied that probing inquiry to violations of natural,
substantial rights “of such high character as to find expression and sanction in the Constitution or Bill of
Rights.” Weems, 217 U.S. at 362.

81a
That, in my view, is the best reading of Olano, one
that harmonizes the guarantees of the Sixth Amendment and the tradition of noticing errors that, though
unpreserved, uniquely threaten fundamental rights.
Not one that licenses endless tradeoffs to efficiency.
Rather, as the Supreme Court recently cautioned, while
“[t]here may be instances where countervailing factors
satisfy the court of appeals that the fairness, integrity,
and public reputation of the proceedings will be preserved absent correction,” we must perform a “searching” inquiry. Rosales-Mireles v. United States, 138 S.
Ct. 1897, 1909 (2018) (emphasis added). Searching
should, as always, begin with the original public understanding of the right in question. Looking to that history, I conclude that allowing an appellate court to find
facts and inferences outside the record to rescue a conviction that all agree lacked an essential element of
proof usurps the role of the jury and therefore cannot be
a countervailing factor under Olano. Put simply, it is
difficult to imagine a countervailing consideration more
fundamental than the fundamental right to a trial by
jury secured by the Constitution.
III. CONTRACTING PLAIN ERROR REVIEW IS
INCONSISTENT WITH HISTORY AND TRADITION

In many respects, we have already traveled far from
the guarantees of the Sixth Amendment to the conclusion that failing to submit every element of a crime to
the jury does not “seriously affect the fairness, integrity,
or public reputation of judicial proceedings.” Johnson,
520 U.S. at 469-70; see also United States v. Cotton, 535
U.S. 625, 632-33 (2002) (“As in Johnson, we need not resolve whether respondents satisfy this element of the

82a
plain-error inquiry, because even assuming respondents’ substantial rights were affected, the error did not
seriously affect the fairness, integrity, or public reputation of judicial proceedings.”) (citation omitted); Neder,
527 U.S. at 9 (“[A]n instruction that omits an element of
the offense does not necessarily render a criminal trial
fundamentally unfair or an unreliable vehicle for determining guilt or innocence.”). Now, even under harmless
-error review, an appellate court is free to step into the
role of the jury and peruse the record for facts supporting the missing element of a crime. Id. at 17. At
least, the court may step in for now, so long as those
facts are “overwhelming,” “uncontroverted,” and “[o]n
[the] record.” Johnson, 520 U.S. at 470 (internal quotation marks omitted); see also Neder, 520 U.S. at 16-17
(upholding conviction relying on “overwhelming record
evidence”); Cotton, 535 U.S. at 633 (finding no plain error where record evidence was “overwhelming” and “essentially uncontroverted”). So while “we do not know
. . . how many elements can be taken away from the
jury with impunity, so long as appellate judges are persuaded that the defendant is surely guilty,” we know we
would be free to affirm Nasir’s conviction looking solely
to evidence in the record. Neder, 527 U.S. at 33 (Scalia,
J., concurring in part and dissenting in part).
But we have no such evidence to reach for. To uphold Nasir’s conviction, we must supplement the evidentiary record with information never presented to the
jury. “The most [we] can conclude is that a jury would
surely have found petitioner guilty beyond a reasonable
doubt—not that the jury’s actual finding of guilty beyond a reasonable doubt would surely not have been different absent the constitutional error.” Sullivan, 508
U.S. at 280. I am doubtful that the Sixth Amendment

83a
was first understood to provide courts the power “to hypothesize a guilty verdict that was never in fact rendered.” Id. at 279. Some might find it tempting to
glance outside the record for proof, perhaps even compelling proof, that Nasir knew he was a felon. But that
is just the sort of temptation that informed a “healthy
suspicion” of government power and drove the demand
for written confirmation of our most sacred rights.
Neder, 527 U.S. at 32 (Scalia, J., concurring in part and
dissenting in part); see also 3 J. Story, Commentaries on
the Constitution of the United States § 1774, at 653
(1833) (“[Protection] against a spirit of oppression and
tyranny on the part of rulers, and against a spirit of violence and vindictiveness on the part of the people” demands “the severe control of courts of justice, and by
the firm and impartial verdict of a jury sworn to do right
and guided solely by legal evidence and a sense of duty.
In such a course there is a double security against the
prejudices of judges, who may partake of the wishes and
opinions of the government, and against the passions of
the multitude, who may demand their victim with a
clamorous precipitancy.”); cf. Duncan, 391 U.S. at 160
(“So-called petty offenses were tried without juries both
in England and in the Colonies and have always been
held to be exempt from the otherwise comprehensive
language of the Sixth Amendment’s jury trial provisions. There is no substantial evidence that the Framers intended to depart from this established commonlaw practice.”).
This history is reason alone to decline a fresh contraction of the plain error doctrine. The theory of plain
error review exists, as must all laws, as a validation of
our natural and fundamental rights. It is best imag-

84a
ined as a shield against arbitrary expansions of government, not a sword of efficiency striking at the very impediments to easier oppression demanded by the Framers, Ratifiers, and People. Failing to notice error here
would necessarily contravene the original understanding of the Sixth Amendment and, therefore, necessarily
flout the rule of Olano prohibiting courts to ignore errors that “seriously affect the fairness, integrity or public reputation of judicial proceedings.” Olano, 507 U.S.
at 736.
Many courts have held differently. Some say it is of
no moment that the government did not prove knowledge because it is obvious the defendant knew he was a
felon. Reliable records tell us so, they say, and disregarding what a jury did not see would jeopardize the
fairness, integrity, and reputation of the proceedings.
See, e.g., United States v. Miller, 954 F.3d 551, 558 (2d
Cir. 2020). Others conclude that “because convicted
felons typically know they’re convicted felons,” any error is “almost always harmless.” United States v. Lavalais, 960 F.3d 180, 188 (5th Cir. 2020); see also United
States v. Gary, 963 F.3d 420, 423 (4th Cir. 2020) (Wilkinson, J., concurring) (“[T]he vast majority of defendants who will seek to take advantage of a structural Rehaif error are perfectly aware of their felony status.
Felony status is simply not the kind of thing that one
forgets.”). Still others find post-Rehaif extra-record
review to be a natural evolution to reviewing documents
outside the record at sentencing. See United States v.
Reed, 941 F.3d 1018, 1021 (11th Cir. 2019) (quoting
United States v. Vonn, 535 U.S. 55, 59 (2002)).
Perhaps. But I do not read these post-Rehaif cases
to proceed from the common law tradition of plain error

85a
review and, as a corollary, the original understanding of
the Sixth Amendment. I find no evidence that the
guarantees enumerated in the Bill of Rights are measured for modern efficiency. To the contrary, our Framers expected these rights would protect us all from encroachment by the government they hesitantly accepted.
That fear explains why, “[w]hen our more immediate ancestors removed to America, they brought this great
privilege with them, as their birth-right and inheritance,
as a part of that admirable common law, which had fenced
round, and interposed barriers on every side against the
approaches of arbitrary power.” 3 J. Story, Commentaries on the Constitution of the United States § 1773, at
652-53 (1833); see also Thompson v. Utah, 170 U.S. 343,
350 (1898) (“The trial per pais, or by a jury of one’s country, is justly esteemed one of the principal excellencies
of our constitution; for what greater security can any
person have in his life, liberty, or estate than to be sure
of the being devested of nor injured in any of these without the sense and verdict of twelve honest and impartial
men of his neighborhood?” (quoting Juries, 3 Matthew
Bacon, A New Abridgment of the Law (1736)). Put
simply: “If you’re charged with a crime, the Sixth
Amendment guarantees you the right to a jury trial.
From this, it follows that the prosecutor must prove to
a jury all of the facts legally necessary to support your
term of incarceration.” Hester v. United States, 139 S.
Ct. 509, 509 (2019) (Gorsuch, J., dissenting).
For that reason, I prefer the certainty of the “great
rights” Madison captured in the Constitution, including
“trial by jury, freedom of the press, [and] liberty of conscience.” 1 Annals of Cong. 453 (1789) (Joseph Gales
ed., 1834). Rather than see them eroded, I find “it is
proper that every Government should be disarmed of

86a
powers which trench upon those particular rights.” Id.
at 458. While that differs from the conclusions of other
courts, we should recall that “[t]hose who wrote our constitution[] knew from history and experience that it was
necessary to protect against unfounded criminal charges
. . . and against judges too responsive to the voice of
higher authority.” Duncan, 391 U.S. at 156.
IV.

CONCLUSION

I readily acknowledge that retrying defendants like
Nasir might end up with juries returning the same verdict of guilt. But isn’t that the point? Like Justice
Scalia, and Blackstone long before him, I bear deep reservations about any holding that “scorn[s]” our “formal
requirements . . . when they stand in the way of expediency.” Neder, 527 U.S. at 39-40 (citing 4 W. Blackstone, Commentaries *350 (“[H]owever convenient [intrusions on the jury right] may appear at first, (as,
doubtless, all arbitrary powers, well executed, are the
most convenient,) yet let it be again remembered that
delays and little inconveniences in the forms of justice
are the price that all free nations must pay for their liberty in more substantial matters[.]”). Pillars of liberty
are rarely toppled, but sanded down into forms unrecognizable to their creator. The right to be judged by
impartial peers under the due process of law stands as
an antagonist against such erosion, and “[s]o long . . .
as this palladium remains sacred and inviolable, the liberties of a free government cannot wholly fall.” 3 J.
Story, supra § 1774, at 653 (citing 4 Blackstone Commentaries at *349-50).
For all these reasons, I conclude that “[i]n the end,
the best anyone can seem to muster . . . is that, if
we dared to admit in his case what we all know to be true

87a
about the Sixth Amendment, we might have to say the
same in some others.” Ramos, 140 S. Ct. at 1408 (plurality opinion). I therefore concur.

88a
PORTER, Circuit Judge, joined by SMITH, Chief Judge,
CHAGARES, HARDIMAN, SHWARTZ, BIBAS, and PHIPPS,
Circuit Judges, concurring in part and dissenting in
part.
I concur with Sections I and II.D of the majority
opinion. But I depart from the majority’s plain-error
discussion in Section II.E because it is profoundly mistaken, it dismisses the collective wisdom of nearly every
other circuit court, and—ironically—it derogates the
fairness, integrity, and public reputation of judicial proceedings. After reviewing the entire record, I would
affirm Malik Nasir’s conviction rather than remand it
for a pointless retrial.
I.

ADDITIONAL BACKGROUND
A. Nasir pleaded guilty to felony charges on three
separate occasions and actually served over seven
years’ imprisonment

On September 6, 2000, Nasir pleaded guilty to attempting to possess cocaine with intent to distribute.
As a result of his guilty plea and felony conviction, Nasir
was sentenced to seven years’ imprisonment. After serving one year in prison, his sentence was suspended, and
he was placed on supervised probation.
On June 21, 2001, Nasir pleaded guilty to possession
of cocaine with intent to distribute. As a result of his
guilty plea and felony conviction, Nasir was sentenced
to ten years’ and thirty days’ imprisonment. After serving eighteen months in prison, his sentence was suspended and he was placed on supervised probation.
On June 20, 2007, Nasir pleaded guilty to possession
of a firearm by a convicted felon in violation of 18 U.S.C.
§ 922(g)(1). As a result of his guilty plea and felony

89a
conviction, Nasir was sentenced to eighty-four months’
imprisonment. He actually served five and one-half
years of that sentence before being released on December 14, 2012.
B. Nasir stipulated to his prior felony conviction and
did not make a scienter objection at trial

In 2015, Nasir was indicted for violating the felon-inpossession statute, together with several drug-related
charges. At his 2017 trial, Nasir stipulated that he had
been “convicted of a felony crime punishable by imprisonment for a term exceeding one year, in the United
States District Court for the Eastern District of Virginia.” S.A. 21. Although Nasir’s stipulation did not
specify the prior felony conviction, it was for possession
of a firearm by a convicted felon in violation of 18 U.S.C.
§ 922(g)(1)—the same crime for which he was being
tried. Nasir’s stipulation prevented the government
from introducing evidence to prove the nature and circumstances of his prior felony conviction. See Old
Chief v. United States, 519 U.S. 172, 174-75 (1997).
Under the law at the time of Nasir’s trial, the government adduced sufficient evidence to secure a conviction
under § 922(g)(1) and the district court properly instructed the jury on the elements of that crime. Nasir
did not object to the district court’s jury instruction or
to the sufficiency of the government’s evidence on the
§ 922(g)(1) charge. But while his appeal was pending
the Supreme Court decided Rehaif v. United States, 139
S. Ct. 2191 (2019), holding that in order to secure a conviction under § 922(g), the government must prove that
the defendant “knew he belonged to the relevant category of persons barred from possessing a firearm.” Id.

90a
at 2200. Nasir then supplemented his briefing by adding new arguments based on Rehaif.
II. NASIR CANNOT SATISFY OLANO PRONG FOUR, SO HIS
CONVICTION SHOULD BE AFFIRMED
A. The purpose of plain-error review

The majority duly notes that because Nasir did
not object to the sufficiency of the evidence on the
knowledge-of-status element, we review for plain error.
Maj. Op. 27. But the majority fails to consider the reason for plain-error review and how that reason informs
our decision. Federal Rule of Criminal Procedure
52(b) exists to promote compliance with claim-presentation
rules. When a defendant forfeits an issue by failing to
timely object, we have discretion to correct the plain error. But that discretion is bounded by the four factors
discussed in United States v. Olano, 507 U.S. 725, 73236 (1993), particularly the prong-four focus on the fairness, integrity, and public reputation of judicial proceedings.
The link between forfeiture and plain-error review is
relevant here because Nasir failed to raise a knowledgeof-status objection at his trial. True, the Supreme
Court did not change the rule until two years later when
it decided Rehaif. But even if a solid wall of circuit authority makes objection at trial apparently futile, Rule
52(b) applies when the source of plain error is a supervening decision. Johnson v. United States, 520 U.S.
461, 468 (1997). Contra United States v. Keys, 95 F.3d
874, 878 (9th Cir. 1996) (Rule 52(a), rather than Rule
52(b), governs appellate review of unpreserved error
when defendant “faced with a solid wall of circuit authority” at trial), vacated, 520 U.S. 1226 (1997).

91a
Contrary to the majority’s suggestion, Maj. Op. 2830, the scienter issue was hardly a secret at the time of
Nasir’s trial. The Supreme Court highlighted the constitutional importance of mens rea in Staples v. United
States, 511 U.S. 600, 619-20 (1994) (government required to prove that defendant knew that the features of
his AR-15 rifle brought it within the scope of machinegun provision of National Firearms Act), and United
States v. X-Citement Video, Inc., 513 U.S. 64, 78 (1994)
(in prosecution under Protection of Children Against
Sexual Exploitation Act, government required to prove
that defendant knew he was sending or receiving pictures of minors engaged in sexually explicit conduct).
In 1995, a divided Fourth Circuit held that the government need not prove that the defendant in a § 922(g)(1)
prosecution had the requisite scienter regarding his felony status. United States v. Langley, 62 F.3d 602 (4th
Cir. 1995) (en banc). Subsequently, the scienter issue
in § 922(g) cases continued to percolate in courts throughout the country. See, e.g., United States v. GamesPerez, 695 F.3d 1104, 1116-24 (10th Cir. 2012) (Gorsuch,
J., dissenting from denial of rehearing en banc); United
States v. Games-Perez, 667 F.3d 1136, 1140-42 (10th Cir.
2012); United States v. Butler, 637 F.3d 519, 523-25 (5th
Cir. 2011); United States v. Olender, 338 F.3d 629, 637
(6th Cir. 2003); United States v. Enslin, 327 F.3d 788,
798-99 (9th Cir. 2003); United States v. Wilson, 159 F.3d
280, 293-96 (7th Cir. 1998) (Posner, J., dissenting).
In our circuit, a district court anticipated Rehaif by a
decade, holding that in a § 922(g)(1) prosecution the government must prove that the defendant knew of his felon
status. United States v. Kitsch, No. 03-594-01, 2008 WL
2971548, at *7 (E.D. Pa. Aug. 1, 2008). And in prosecu-

92a
tions for the closely related charge of aiding and abetting a violation of § 922(g)(1), we have long required the
government to prove beyond a reasonable doubt that the
defendant knew the possessor’s status as a felon. United
States v. Xavier, 2 F.3d 1281, 1286-87 (3d Cir. 1993).
Even though a timely scienter-based objection would
likely have been overruled in 2017, the objection itself
could have prompted the government to supplement the
record with additional evidence of Nasir’s mens rea.
See Pfeifer v. Jones & Laughlin Steel Corp., 678 F.2d
453, 457 n.1 (3d Cir. 1982) (contemporaneous objection
rule “affords an opportunity for correction and avoidance in the trial court in various ways: it gives the adversary the opportunity either to avoid the challenged
action or to present a reasoned defense of the trial
court’s action; and it provides the trial court with the alternative of altering or modifying a decision or of ordering a more fully developed record for review”), judgment vacated on other grounds, 462 U.S. 523 (1983).
But Nasir—unlike Rehaif—did not preserve his scienterbased objection, so he deprived the government and
trial court of these opportunities.
B. The nature of plain-error review

Rule 52(b) gives us discretion to correct plain error
in such cases, but the rule is “permissive, not mandatory.” Olano, 507 U.S. at 735. And our discretionary
authority to remedy a forfeited error is “strictly circumscribed,” Puckett v. United States, 556 U.S. 129, 134
(2009), though not as the majority appears to believe.
The majority asserts that we have only “a degree of discretion in determining whether to correct [plain] error,”
which seems to suggest a presumption in favor of error-

93a
correction and that our discretion to ignore plain error
is quite narrow. Maj. Op. 27.
The majority’s parsimonious view of our Rule 52(b)
discretion is contrary to Supreme Court precedent.
We are to correct plain errors “sparingly,” Jones v.
United States, 527 U.S. 373, 389 (1999), and only in “exceptional circumstances,” United States v. Atkinson,
297 U.S. 157, 160 (1936), where it is necessary to set
aside “particularly egregious errors,” United States v.
Young, 470 U.S. 1, 15 (1985) (internal quotation marks
omitted) (quoting United States v. Frady, 456 U.S. 152,
163 (1982)). Meeting all four prongs of the plain-error
standard “is difficult, ‘as it should be.’ ” Puckett, 556
U.S. at 135 (quoting United States v. Dominguez Benitez, 542 U.S. 74, 83 n.9 (2004)). That is particularly true
when, as here, curing the plain error would require the
district court to conduct a burdensome jury retrial.
Rosales-Mireles v. United States, 138 S. Ct. 1897, 1909
(2018).
The reviewing court’s exercise of prong-four discretion is an independent barrier to relief on a forfeited
claim of error. Even “a plain error affecting substantial rights does not, without more, satisfy the Atkinson
standard, for otherwise the discretion afforded by Rule
52(b) would be illusory.” Olano, 507 U.S. at 737. Regrettably, we have sometimes conflated prongs three
and four with little to no separate prong-four analysis.
See United States v. Gaydos, 108 F.3d 505, 509 (3d Cir.
1997) (suggesting, without any prong-four analysis, that
the plain error automatically satisfied prong four); Xavier, 2 F.3d at 1287 (same).

94a
This case affords a rare opportunity for the en banc
Court to disavow such imprecision and fine-tune its approach to plain-error review. Alas, the majority exacerbates the problem by declaring that the plain error in
Nasir’s case derogated his substantial rights thus satisfying Olano step four. Maj. Op. 62 (citing Gaydos, 108
F.3d at 509). Rather than conduct “a case-specific and
fact-intensive” review in light of the entire record, Puckett, 556 U.S. at 142, the majority simply assumes that
plain error of an undefined “magnitude” categorically
requires correction at Olano prong four. Maj. Op. 62.
C. Plain-error review requires consideration of the
entire record

Casting aside the case-specific and fact-intensive approach required by Puckett, the majority asserts that
“constitutional norms” require error-correction because
the Supreme Court’s decision in Rehaif retroactively created due process concerns. Maj. Op. 62. But framing
the plain error as a due-process violation does not automatically satisfy Olano prong three or four.
See
United States v. Marcus, 560 U.S. 258, 264-66 (2010).
That is because even constitutional rights “may be forfeited in criminal as well as civil cases by the failure to
make timely assertion of the right before a tribunal having jurisdiction to determine it.” Olano, 507 U.S. at
731 (internal quotation marks omitted) (quoting Yakus
v. United States, 321 U.S. 414, 444 (1944)). So a defendant’s failure to object at trial, even though the error
was not plain at the time, “may well count against the
grant of Rule 52(b) relief.”
Henderson v. United
States, 568 U.S. 266, 278-79 (2013).
The Court in Johnson held only that an error that
was not plainly incorrect at the time of trial becomes

95a
plain when the law is subsequently clarified. Johnson,
520 U.S. at 468. That is, the timing question concerned
the “plainness” of the error, which relates only to Olano
prong two. See Henderson, 568 U.S. at 279 (time-ofreview rule adopted in Johnson and Henderson applies
specifically to the second part of the four-part Olano
test). The majority’s insistence that our prong-four
analysis is likewise limited to the time of trial (as memorialized in the trial record) is unwarranted and finds no
support in Johnson.
Indeed, having found that the error was plain, the
Court in Johnson assumed without deciding that Olano
prong three was satisfied and denied relief under prong
four because the error did not “seriously affect[] the
fairness, integrity or public reputation of judicial proceedings.” Johnson, 520 U.S. at 469-70 (internal quotation marks omitted) (quoting Olano, 507 U.S. at 736).
Two aspects of the Court’s discussion are relevant here.
First, the Court itself—and not the jury—found that the
record contained enough evidence on materiality that no
reasonable juror could have decided the materiality
question 1 in any other way. Id. at 470; see also United
States v. Johnson, 899 F.3d 191, 200 (3d Cir. 2018) (finding the trial record contained sufficient evidence to support defendant’s conviction and declining to cure plain
error at prong four, even though the jury was not instructed to find, and did not find, a required element).
Second, in making that finding the Court did not confine its review to information available only at the time

The plain error in Johnson concerned the trial court’s failure to
submit materiality to the jury, as subsequently required in United
States v. Gaudin, 515 U.S. 506 (1995). Johnson, 520 U.S. at 464.
1

96a
of trial. Rather, it noted that “[m]ateriality was essentially uncontroverted at trial and has remained so on
appeal.” Johnson, 520 U.S. at 470 (emphasis added)
(footnote omitted). Reviewing the case under the prongfour standard, the Court considered whether petitioner
made a plausible showing 2—not just at trial but afterwards, before the Eleventh Circuit or the Supreme Court
—that the false statement for which she was convicted
was not material. Id. Satisfied that she had not, the
Court affirmed the court of appeals’ exercise of its discretion to decline to correct the plain error. So while
the “plainness” of an error (prong two) is pegged to the
time of trial, the broader question whether the plain error seriously affects the fairness, integrity, and public
reputation of judicial proceedings (prong four) has a
longer time horizon extending throughout the appeal
process. See Henderson, 568 U.S. at 275 (the reviewing court examines Olano’s third and fourth criteria by
“looking at the circumstances that now are,” i.e., at the
time of the appeal rather than by looking back to the
time of trial).
The majority attempts to narrow the discretion provided by Rule 52(b) by ignoring its expansive text and
cabining its temporal scope. Throughout its opinion,
the majority insists that the discretion afforded by Rule
52(b) must be restricted to the time of the trial itself and
to facts in the trial record. This is necessary, the majority warns, to avoid trampling on Fifth and Sixth
We have also previously used a “no-plausible-argument” or “noplausible-explanation” test in deciding plain-error cases at prong
four. See, e.g., United States v. Greenspan, 923 F.3d 138, 154-56 (3d
Cir. 2019); United States v. W. Indies Transp., Inc., 127 F.3d 299,
306 (3d Cir. 1997).
2

97a
Amendment rights in violation of In re Winship, 397
U.S. 358 (1970). Maj. Op. 32-33.
The majority misapprehends the nature and purpose
of plain-error review, particularly at prong four. We
do not purport to “find facts” in order to overcome a deficiency in the evidence and on that basis pronounce the
defendant’s conviction while relieving the government
of its burden. Rather, as is clear from the entire line of
plain-error cases before and after Olano, there is a material difference between our remedial discretion under
Rule 52(b) and the jury’s factfinding role at trial. At
prong four, we answer a question that no jury could ever
appropriately entertain: whether, considering the entire record, reasonable observers would conclude that
declining to correct the plain error creates a miscarriage
of justice or would seriously affect the fairness, integrity, and public reputation of judicial proceedings generally.
Conversely, remanding for retrial on an uncontestable element may be “[t]he real threat” to fairness and
undermine the reputation of judicial proceedings—a
powerful truism that the majority does not acknowledge.
United States v. Cotton, 535 U.S. 625, 634 (2002); see also
Dominguez Benitez, 542 U.S. at 82 (plain-error review
should enforce Rule 52(b)’s policy of reducing “wasteful
reversals”).
The majority’s misconception of plain-error review
infects its entire discussion of the record that we review
under Rule 52(b). Because the majority regards plainerror review as a kind of extension of the jury trial rather than a discretionary act tethered to Rule 51(b)’s
forfeiture rule, it fixates on Winship’s requirement of
proof beyond a reasonable doubt in criminal trials.

98a
Maj. Op. 32-37. 3 Were we reviewing Nasir’s conviction
for sufficiency of the evidence, the majority’s scruples
would be more persuasive. But we are merely exercising remedial discretion over a forfeited objection, so unless the majority intends to attack the constitutionality
of Rule 52(b) generally, its analysis is misdirected. 4
D. By limiting plain-error review to the trial record,
the majority creates a per se rule requiring error
correction

We evaluate a claim of plain error “against the entire
record” because “[i]t is simply not possible for an appellate court to assess the seriousness of the claimed error
by any other means.” Young, 470 U.S. at 16. This
case nicely illustrates why it is “simply not possible” to
perform a prong-four assessment without considering
the whole record. At prong three, we review only the
trial record to determine whether the error affected the
In response, the majority contends that what separates us is
nothing less than fidelity to the “Constitution itself.” Maj. Op. 34
n.17. But the majority ignores the thrust of my criticism. In a different case the majority’s fixation on Winship would be salutary, but
here it is misplaced because plain-error review is not a continuation
of the jury trial.
4
We do not “[d]isregard[] constitutional norms” in refusing to remand a case to the district court on plain-error review when the jury’s
verdict was obviously correct. Maj. Op. 62. Surely the majority is
not suggesting that plain-error review is inapplicable whenever important constitutional rights are at issue; nor (I hope) is it suggesting that nearly all of our sister circuits are so unconcerned with the
preservation of constitutional guarantees that they would disregard
an obvious Sixth Amendment violation just for the sake of keeping a
person behind bars. See infra at 12-13. Simply put, the majority’s
approach challenges the constitutionality of Rule 52(b)’s plain-error
standard as explicated in Supreme Court decisions.
3

99a
outcome of the district court proceedings. See United
States v. Maez, 960 F.3d 949, 961 (7th Cir. 2020). If it
did, then we move to Olano prong four. But if at prong
four we continue to limit our consideration to the trial
record we see only the prejudice that satisfied prong
three in the first place. We cannot see—or more precisely, we pretend not to notice—Nasir’s three prior felony guilty pleas 5 and his seven and one-half years of imprisonment.
Thus blinkered, we cannot adopt the
broader, outward-looking perspective necessary to determine whether public perceptions of fairness, integrity, and the reputation of judicial proceedings require
us to cure the error.
The majority’s crucial move—limiting the scope of
our prong-four review—is dispositive in appeals from
Rehaif-infected felon-in-possession convictions where,
as here, the defendant stipulated to his felon status.

The majority is comfortable inferring a defendant’s knowledgeof-felon status from his prior guilty plea because “when a defendant
pleads guilty, the district court must ensure that the plea is knowing
and voluntary.” Maj. Op. 40. But the majority refuses to apply
that same logic to Nasir, who knowingly and voluntarily pleaded
guilty to felony charges on three separate occasions. Indeed, he even
pleaded guilty to a prior felon-in-possession charge. So as the majority acknowledges, when he was tried for the same offense in this
case he necessarily knew that he was a felon. This is precisely the
sort of information that should inform our discretionary judgment at
prong four. See, e.g., United States v. Huntsberry, 956 F.3d 270,
285 (5th Cir. 2020); United States v. Ward, 957 F.3d 691, 695 (6th
Cir. 2020). Nasir’s plea to a felon-in-possession charge, which is the
offense embodied in the Old Chief stipulation, is a central reason why
this case is not one where allowing the conviction to stand would impugn the fairness, integrity, or reputation of judicial proceedings.
See also infra at 16-18.
5

100a
Because of Nasir’s stipulation, the government was precluded from adducing evidence relating to the nature
and circumstances of his prior felony convictions. Old
Chief, 519 U.S. at 174-75. For the reasons explained in
Old Chief, shielding Nasir in that manner was appropriate at his jury trial. But post-trial, the unfair-prejudice
and jury-misleading rationales of Federal Rule of Evidence 403 no longer obtain, which highlights the tension
between Rehaif and Old Chief that Justice Alito noted
in his Rehaif dissent. Rehaif, 139 S. Ct. at 2209 (Alito,
J., dissenting).
The majority’s restriction of our
prong-four review to the trial record effectively converts Nasir’s Old Chief stipulation from a jury-trial
shield into an appellate sword preventing this Court
from considering facts relating to his scienter.
Allowing Nasir to deploy Old Chief offensively itself
adversely affects the fairness, integrity, and public reputation of judicial proceedings. But limiting our prongfour review to the trial record is even more consequential. By short-circuiting the Olano analysis at step three,
the majority predestines the result in appeals of Rehaifinfected felon-in-possession convictions involving an Old
Chief stipulation—always in favor of error-correction.
The combination of Old Chief and the majority’s insistence that we may consider only the trial record, even at
prong four, creates a per se rule requiring remand in
every such case. That is precisely the type of “flawed”
approach that the Supreme Court has disapproved because it renders our prong-four discretion “illusory.”
Olano, 507 U.S. at 737; Young, 470 U.S. at 16 n.14.
Given the Supreme Court’s clear and repeated admonitions, the majority offers assurance that it is not
advocating the adoption of a per se rule. Maj. Op. 50

101a
n.29. But that disclaimer is meaningless; whether the
majority intends to “advocate” the adoption of a per se
rule, it has in fact created one. Gamely trying to
demonstrate the flexibility of its per se rule, the majority offers two examples “where sufficient evidence was
presented at trial to show that the defendant was aware
of his status as a felon at the time of the crime.” Id.
(citing United States v. Moss, 812 F. App’x 108, 111 (4th
Cir. 2020), and United States v. Velázquez-Aponte, 940
F.3d 785, 800 (1st Cir. 2019)). Both cases are inapposite, however, because in neither did the defendant invoke the Old Chief bar by stipulating to his prior felony
conviction.
Throughout its opinion, the majority discounts the
impact of Nasir’s Old Chief stipulation. Maj. Op. 47
n.26 (“[W]e think the existence of an Old Chief stipulation has little relevance to the analysis. . . . ”).
That is a massive blind spot.
Because defendants typically avail themselves of Old
Chief when they have multiple or damning felony
records, it should come as no surprise that a reviewing court, conducting plain-error review, will find
that the fairness, integrity, or public reputation of
judicial proceedings has not been affected, when considering evidence of the defendant’s felony status beyond just the trial record.
United States v. Miller, 954 F.3d 551, 559 n.23 (2d Cir.
2020). That is true here, as well. But by limiting our
review to the trial record—which of course includes the
Old Chief bar—the majority makes it impossible for us
to perform the required prong-four analysis.

102a
The majority has no answer to the outsized role of
Old Chief in this case, except to implausibly suggest that
Nasir’s stipulation did not prevent the government from
introducing his knowledge-of-status at trial. Maj. Op.
50 n.29. But precisely because of Nasir’s stipulation,
the trial court would almost certainly have sustained the
inevitable unfair-prejudice objection because the evidence proving his felon status and knowledge of status
is substantially the same, or at least inextricably intertwined.
E. The “entire record” is broader than the trial record

The majority leans heavily on Johnson for its holding
that we may consider only the trial record on plain-error
review, rather than the entire record. Maj. Op. 34-35.
But Johnson was not a felon-in-possession case, so the
trial record was not constrained by Old Chief. As a result, the evidence supporting materiality was so “overwhelming” that petitioner had “no plausible argument”
at trial or on appeal. Johnson, 520 U.S. at 470. The
lack of an Old Chief stipulation is highly relevant to the
analysis in Johnson and distinguishes it from this case.
The majority’s discussion of Neder v. United States,
527 U.S. 1 (1999), is even less persuasive. Maj. Op. 35
n.18. Neder was a harmless-error case decided under
Rule 52(a), not a Rule 52(b) plain-error case. 527 U.S.
at 7-8. Olano step three is essentially harmless-error
analysis, and as the majority itself acknowledges, all
agree that it is based on the trial record. Maj. Op. 4445 (discussing Maez). But the move from step three to
step four distinguishes this and other plain-error cases
from Neder, and it is at step four that we are required
to evaluate the case “against entire record.” Young,
470 U.S. at 16. The majority’s reliance on Neder in

103a
support of its trial-record-only holding underscores its
persistent tendency to conflate Olano prongs three and
four. 6
Our sister circuits understand this quite well. As
the majority concedes, the Second, Fifth, Sixth, Seventh, Eighth, Ninth, and Eleventh Circuits have repeatedly affirmed jury verdicts in § 922(g) cases and rejected
arguments similar to those accepted by the majority.
Miller, 954 F.3d at 560; Huntsberry, 956 F.3d at 285-87;
Ward, 957 F.3d at 695; Maez, 960 F.3d at 963-64; United
States v. Owens, 966 F.3d 700, 706-07 (8th Cir. 2020);
United States v. Benamor, 937 F.3d 1182, 1188-89 (9th
Cir. 2019); United States v. Reed, 941 F.3d 1018, 102122 (11th Cir. 2019). Even United States v. Medley, 972
F.3d 399 (4th Cir. 2020), which the majority enlists for
support, Maj. Op. 57-58, does not explicitly foreclose
consideration of matters outside the trial record when
addressing forfeited Rehaif claims under the plain-error
standard. Medley, 972 F.3d at 417. Medley is already an outlier; the majority would go even further and
place this Court beyond the pale.
At last count, 140 appellate judges and 15 district
judges sitting by designation have voted to uphold a
The majority’s emphasis on the amount of evidence in the Neder
trial record is curious, considering its heavy reliance on In re Winship. Maj. Op. 35 n.18. The defendant’s Sixth Amendment right
is to have all evidence proven beyond a reasonable doubt to a jury,
not simply to have the government put a surfeit of evidence into a
record. Yet, applying the harmless-error standard the Supreme
Court affirmed Neder’s conviction because there was enough evidence in the record to find an element of the offense—even though
the jury never made such a finding. 527 U.S. at 16-18. Neder thus
undermines rather than supports the majority’s primary rationale in
this plain-error case.
6

104a
felon-in-possession conviction on plain-error review of a
Rehaif claim. How could so many federal judges approve the obvious violation of important Fifth Amendment and Sixth Amendment rights? The answer is
that they haven’t; our colleagues overwhelmingly understand the difference between judicial factfinding and
plain-error remedial discretion. 7
By holding that we may not review the whole record
at prong four, the majority positions us on the short end
of a lopsided circuit split. It fails to identify a “compelling basis” to do so, in defiance of our Court’s “general[]
reluctan[ce]” to create such splits. In re Asbestos
Prod. Liab. Litig. (No. VI), 921 F.3d 98, 109 (3d Cir.
2019) (internal quotation marks omitted) (quoting Parker v. Montgomery Cty. Corr. Facility/Bus. Office Manager, 870 F.3d 144, 152 (3d Cir. 2017)). More importantly, the majority’s criticisms of our sister circuits’
positions are mistaken.
Consider the majority’s handling of the Eleventh Circuit’s decision in United States v. Reed. The defendant
in Reed was convicted by a jury of possessing a firearm
as a felon, and the Eleventh Circuit affirmed his conviction. 941 F.3d at 1019. The Supreme Court vacated
the Eleventh Circuit’s judgment of affirmance in light of

The majority sniffs that its decision is based upon “independent
judgment” rather than simple nose-counting. Maj. Op. 49 n.28.
That misses the point. Respectfully, my suggestion is that in exercising its independent judgment the majority has inadequately considered the extreme unlikelihood that so many of our judicial colleagues have somehow missed, or would casually ignore, the due process and Sixth Amendment concerns that the majority finds so troubling.
7

105a
Rehaif and remanded for reconsideration. Id. On remand, the Eleventh Circuit once again affirmed. Id. at
1022. It held that an appellate court may review the
whole record when assessing a Rehaif error’s effect, or
lack thereof, on the fairness, integrity, or public reputation of judicial proceedings. Id. at 1021-22. Because
the defendant’s presentence report “stated that he had
been incarcerated for lengthy terms before possessing
the firearm,” id. at 1020, he could not prove that the error affected “the fairness, integrity, or public reputation
of his trial,” id. at 1022. Accordingly, the Eleventh Circuit declined to set aside his conviction. Id. at 1022.
The majority chides the Eleventh Circuit for relying
on United States v. Vonn, 535 U.S. 55 (2002), and concluding that a court need not confine itself to the trial
record at prong four, because Vonn involved review of a
guilty plea rather than a conviction after a jury trial.
Maj. Op. 39-40. But the majority ignores the Eleventh
Circuit’s discussion of United States v. Young. See
Reed, 941 F.3d at 1021. In Young, the Supreme Court
denied plain-error relief where a prosecutor made improper comments during rebuttal because the remarks
were made in response to defense counsel’s own improper remarks during summation and “were not such
as to undermine the fundamental fairness of the trial
and contribute to a miscarriage of justice.” 470 U.S. at
16-19. The Court explained that it could not “properly
evaluate [the defendant’s claims of error] except by
viewing [them] against the entire record,” id. at 16 (emphasis added), because Rule 52(b) “authorizes the
Courts of Appeals to correct only ‘particularly egregious
errors,’ ” id. at 15 (quoting Frady, 456 U.S. at 163).

106a
The Supreme Court has never held that the “entire
record” that Young instructs us to examine means just
the trial record. 8 That would make no sense: reasonable people will consider all relevant information in assessing whether our decision to affirm Nasir’s conviction works a miscarriage of justice that is inconsistent
with fairness, integrity, and the good reputation of our
judicial system. And unlike the majority, they will not
arbitrarily ignore the indisputable fact of Nasir’s scienter and guilt. Maj. Op. 59-64. In deciding whether to
exercise our discretion, we should consider reliable materials within and outside of the trial record just as
thoughtful members of the public certainly will. 9
In Makiel v. Butler, 782 F.3d 882 (7th Cir. 2015), the Seventh
Circuit discussed the difference between the “entire record” and the
“trial record” in a case involving the materiality standard of the
Compulsory Process Clause. Id. at 908-10. Although Makiel was
not a plain-error case, the court’s discussion assists our consideration of the scope of discretionary review prescribed by Olano. Similar to our task at prong four, the court in Makiel had to evaluate the
defendant’s argument in light of public interests such as “the integrity of the adversary process, the interest in the fair and efficient
administration of justice, and the potential prejudice to the truthdetermining function of the trial process.” Id. at 909. The Seventh Circuit concluded that when the Supreme Court instructs circuit courts to evaluate claims of trial error in the context of the “entire record,” that is broader than the “trial record.” Id.
9
Consider the prong-four significance of Nasir’s Old Chief stipulation, which of course was part of the trial record. The majority
suggests that it could never be even circumstantial evidence of his
scienter, Maj. Op. 55-57, but that assertion is not compelled by Rehaif. And it wars against common sense and experience. As a
strictly logical proposition, it is true that Nasir’s stipulation proved
only that he knew of his felon status as of the date of the stipulation;
it did not necessarily prove that he knew he was a felon when he was
arrested with the gun. But just as a factual statement can be strictly
8

107a
The majority also assails the Second Circuit’s decision in Miller and the Seventh Circuit’s decision in
Maez. Its criticism of the approach taken by those two
circuits is similarly unpersuasive.
Miller involved a defendant whose presentence investigation report showed that he spent several years in
prison prior to his firearm possession, rendering it obvious that he knew he was a felon at the time of possession.
954 F.3d at 560. The Second Circuit “ha[d] no doubt
that, had the Rehaif issue been foreseen by the district
court, [the defendant] would have stipulated to
knowledge of his felon status to prevent the jury from
hearing evidence of his actual sentence.” Id. at 560.
So, the court concluded, the fairness, integrity, and public reputation of the judicial system would not be seriously affected by upholding the conviction; in fact, the
defendant was so obviously guilty that vacating his conviction “would have that effect.” Id. at 559. In Maez,
the Seventh Circuit largely adopted the Second Circuit
approach, concluding that vacating the convictions of
two defendants whose presentence reports indicated
that they served more than one year in prison on prior
felony convictions would negatively affect the fairness,
true and yet fraudulent because of a material omission, Nasir’s stipulation does not foreclose the possibility that he also understood
that he was a felon every day after his knowing and voluntary
guilty pleas in 2000, 2001, and 2007. A thoughtful observer drawing upon her reason, experience, and common sense might easily
infer from Nasir’s June 2017 stipulation that he knew of his felon
status when apprehended with a gun in December 2015. Such an
inference, though not logically required, would be patently sensible
to many people. And surely, many will consider his stipulation in
this light when evaluating our discretionary decision whether to
notice the plain error created by Rehaif.

108a
integrity, and public reputation of judicial proceedings.
960 F.3d at 964-66.
The majority faults the Second and Seventh Circuits
for “treat[ing] judicial discretion as powerful enough to
override the defendant’s right to put the government to
its proof when it has charged him with a crime.” Maj.
Op. 46-47. But Nasir has not been deprived of that
right. He had the opportunity to insist that the government be required to prove that he knew he was a
felon at the time of his firearm possession. He did not
do so, instead agreeing that no such proof need be presented. As a direct result of that choice, the government did not introduce evidence as to Nasir’s knowledge
of his status at the time of possession though such evidence was readily available. I do not see why Nasir’s
failure to object to the jury instruction and decision to
instead avail himself of an Old Chief stipulation should
continue to redound to his benefit now that we are exercising remedial discretion.
F.

Nasir does not satisfy Olano’s step-four standard
for error-correction

Our sister circuits’ approach does not “imply that relief on plain-error review is available only to the innocent.” Maj. Op. 47. 10 If, for example, an error so cor-

Indeed, as the Seventh Circuit recognized, “defendants can sometimes show an effect on fairness or integrity without a claim of innocence.” Maez, 960 F.3d at 962. But “though a defendant’s likelihood of actual guilt or innocence does not necessarily control the
third prong of plain-error review, it may play a role at prong four.”
Id. That is because a court has “broad discretion under prong four
to leave even plain errors uncorrected where [it has] no doubt as to
the ultimate result of further proceedings.” Id. at 963.
10

109a
rupts a judicial proceeding as to make its verdict completely unreliable, no court would require a defendant to
prove on appeal that he was actually innocent before vacating a conviction resulting from such a proceeding.
See Medley, 972 F.3d at 424-25 (Quattlebaum, J., dissenting) (explaining that “central” to prong-four analysis in a criminal case “is a determination of whether,
based on the record in its entirety, the proceedings
against the accused resulted in a fair and reliable determination of guilt” (internal quotation marks omitted)
(quoting United States v. Ramirez-Castillo, 748 F.3d
205, 217 (4th Cir. 2014))). That is because the Third
Branch would not want to put its imprimatur on a proceeding that makes a mockery of justice and reduces the
system’s standing in the eyes of the public. But that is
not a problem here. A simple, unobjected-to error in jury
instructions, where the defendant’s conviction would
have been certain had an objection been made at the
proper time, does not cry out for an exercise of our discretion.
Remanding this case for retrial is unnecessarily burdensome and seriously undermines the fairness and
public reputation of judicial proceedings. That broad
inquiry is the standard governing our exercise of discretion. The majority compounds its error by explicitly
limiting our prong-four discretion to Nasir’s trial, which,
it insists, “is the only judicial proceeding at issue.”
Maj. Op. 41 n.22. Not so. At prong four we ask whether
refusing to cure the plain error would “seriously affect
the fairness, integrity or public reputation of judicial
proceedings” generally, not merely the particular defendant’s proceeding. Puckett, 556 U.S. at 135. As
the Court elaborated in Puckett, we consider whether
affirming Nasir’s conviction would call into question

110a
“the integrity of the system” and be so ludicrous as to
“compromise the public reputation of judicial proceedings.” Id. at 142-43 (emphasis added); see also United
States v. Edgell, 914 F.3d 281, 291 (4th Cir. 2019);
United States v. Marroquin, 884 F.3d 302, 304 (5th Cir.
2018) (Smith, J., dissenting from denial of rehearing en
banc); United States v. Gonzalez-Huerta, 403 F.3d 727,
739 (10th Cir. 2005) (en banc); id. at 742 (Ebel, J., concurring); id. at 747 (Hartz, J., concurring). Because
the majority asks the wrong prong-four question, it refuses to consider information that would suggest the
correct answer.
Even if we improperly limited our prong-four inquiry
to what the majority erroneously describes as “the actual field of play—the trial,” Maj. Op. 41 n.22, we should
still affirm. When asked twice at oral argument how
Nasir would attempt to disprove the knowledge-of-status
element if the case were sent back for retrial, his counsel
was unable to give a responsive answer. (That is not a
criticism of counsel’s performance; there is no plausible
explanation.)
Instead, counsel allowed that Nasir
would strategically use a remand to try to negotiate a
better plea deal. In light of that revelation, I believe
that thoughtful members of the public would view the
majority’s judgment and Nasir’s windfall with bemused
cynicism rather than reputation-enhancing admiration.
G. We are bound by the Supreme Court’s plain-error
precedent

The majority at least purports to apply Olano and its
progeny. Judge Matey’s opinion strikes out in an entirely different direction, citing first principles. I endorse that approach in cases where lower court judges
write on a blank slate, but in this appeal we are guided

111a
by ample Supreme Court precedent. In any event,
although we have not had the benefit of originalist briefing and argument, I doubt that Rule 52(b)’s remedial
discretion as currently applied offends the Sixth
Amendment and note that Justices Scalia and Thomas
both joined Olano without any reservation, originalist or
otherwise. Cf. Concurring Op. 13-16 (criticizing Atkinson and Olano as allegedly unwarranted expansions of
original plain-error doctrine).
Moreover, I fail to
grasp how a purportedly originalist application of plainerror review can affirm the conviction of non-criminal
conduct but disallows the conviction of conduct that was
certainly criminal but not properly proven. Cf. United
States v. Jabateh, 974 F.3d 281, 287 (3d Cir. 2020).
*

*

*

*

*

The Supreme Court has disapproved “a reflexive inclination by appellate courts to reverse because of unpreserved error,” a tendency contrary to the “strictly
circumscribed” appellate-court authority to remedy unpreserved error only where necessary due to exceptional circumstances. Puckett, 556 U.S. at 134 (internal quotation marks omitted) (quoting United States v.
Padilla, 415 F.3d 211, 224 (1st Cir. 2005) (Boudin, C.J.,
concurring)). Yet the majority persists in the face of
overwhelming, reliable information supporting Nasir’s
conviction. Its error stems from a basic misunderstanding of the nature of plain-error review. I respectfully
dissent from Section II.E of the majority opinion.

112a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2888
UNITED STATES OF AMERICA
v.
MALIK NASIR, APPELLANT
Filed:

Mar. 4, 2020

On Appeal from the United States District Court
for the District of Delaware
District Court No. 1-16-cr-00015-001
District Judge: The Honorable Leonard P. Stark
ORDER SUA SPONTE REHEARING EN BANC

Before: SMITH, Chief Judge, MCKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR., SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
*
SCIRICIA and *RENDELL, Circuit Judges
The Court sua sponte orders rehearing en banc in the
above captioned case. Argument shall be limited to:
(i) whether, in light of Kisor v. Wilkie, 139 S. Ct. 2400

Judges Scirica and Rendell have elected to participate as a member of the en banc court pursuant to I.O.P. 9.6.4.
*

113a
(2019), it remains appropriate to defer to the U.S. Sentencing Commission’s commentary to U.S.S.G. § 4B1.2,
consistent with our decision in United States v. Hightower, 25 F.3d 182 (3d Cir. 1994); and (ii) whether, on
plain error review, an appellate court is restricted to
considering only the evidence that was before the jury
at trial or may consider information outside the trial record.
The Clerk of this Court shall list the case for Wednesday, May 27, 2020.
BY THE COURT,
/s/ D. BROOKS SMITH
D. BROOKS SMITH
Chief Judge
DATED:
kr/cc:

Mar. 4, 2020

Robert F. Kravetz, Esq.
Keith M. Donoghue, Esq.
Whitney C. Cloud, Esq.
Daniel E. Logan, Jr., Esq.

114a
APPENDIX C

1.

18 U.S.C. 922(g) provides:

Unlawful acts

(g) It shall be unlawful for any person—
(1) who has been convicted in any court of, a crime
punishable by imprisonment for a term exceeding
one year;
(2)

who is a fugitive from justice;

(3) who is an unlawful user of or addicted to any
controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4) who has been adjudicated as a mental defective or who has been committed to a mental institution;
(5)

who, being an alien—

(A) is illegally or unlawfully in the United
States; or
(B) except as provided in subsection ( y)(2),
has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(26)));
(6) who has been discharged from the Armed
Forces under dishonorable conditions;
(7) who, having been a citizen of the United States,
has renounced his citizenship;
(8)

who is subject to a court order that—

115a
(A) was issued after a hearing of which such
person received actual notice, and at which such
person had an opportunity to participate;
(B) restrains such person from harassing,
stalking, or threatening an intimate partner of
such person or child of such intimate partner or
person, or engaging in other conduct that would
place an intimate partner in reasonable fear of
bodily injury to the partner or child; and
(C)(i) includes a finding that such person represents a credible threat to the physical safety of
such intimate partner or child; or
(ii) by its terms explicitly prohibits the use,
attempted use, or threatened use of physical force
against such intimate partner or child that would
reasonably be expected to cause bodily injury; or
(9) who has been convicted in any court of a misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or ammunition; or to receive any firearm or ammunition which
has been shipped or transported in interstate or foreign
commerce.
2.

18 U.S.C. 924(a)(2) provides:

Penalties

(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), ( j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years,
or both.

116a
3.

Fed. R. Crim. P. 52 provides:

Harmless and Plain Error
(a) Harmless Error.

Any error, defect, irregularity, or variance that does not affect substantial rights
must be disregarded.
(b) Plain Error.

A plain error that affects substantial rights may be considered even though it was not
brought to the court’s attention.

